<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

                           Serial No. 115-69





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-889                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





























                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)





















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     2
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

Ajit Pai, Chairman, Federal Communications Commission............    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   140
Mignon Clyburn, Commissioner, Federal Communications Commission..    20
    Prepared statement...........................................    22
    Answers to submitted questions...............................   154
Michael O'Rielly, Commissioner, Federal Communications Commission    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................   158
Brendan Carr, Commissioner, Federal Communications Commission....    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................   164
Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   167

                           Submitted Material

Op-ed by Chairman Pai entitled, ``The FCC Wades Into the 
  Newsroom,'' Wall Street Journal, February 10, 2014, submitted 
  by Mr. Doyle...................................................    92
Letter of October 16, 2017, from Members of Congress to Chairman 
  Pai, submitted by Mr. Doyle....................................    94
Letter of October 24, 2017, from ConsumersUnion to subcommittee, 
  submitted by Mr. Doyle.........................................    96
Statement of Chairman Pai, submitted by Mr. Doyle................   102
Working paper of the Mercatus Center entitled, ``How FCC 
  Transaction Reviews Threaten Rule of Law and the First 
  Amendment,'' submitted by Mr. Pallone..........................   103
Letter of October 25, 2017, from the LPTV Spectrum Rights 
  Coalition to Mrs. Blackburn....................................   133
Letter of October 16, 2017, from Members of Congress to Chairman 
  Pai............................................................   135

 
           OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2322, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Flores, Brooks, 
Collins, Walters, Costello, Walden (ex officio), Doyle, Welch, 
Clarke, Loebsack, Ruiz, Dingell, Eshoo, Engel, Butterfield, 
Matsui, McNerney, and Pallone (ex officio).
    Also Present: Representatives McMorris Rodgers and Tonko.
    Staff Present: Ray Baum, Staff Director; Kelly Collins, 
Staff Assistant; Robin Colwell, Chief Counsel, Communications 
and Technology; Chuck Flint, Policy Coordinator, Communications 
and Technology; Adam Fromm, Director of Outreach and 
Coalitions; Gene Fullano, Detailee, Communications and 
Technology; Brighton Haslett, Counsel, Oversight and 
Investigations; Elena Hernandez, Press Secretary; Tim Kurth, 
Senior Professional Staff, Communications and Technology; 
Lauren McCarty, Counsel, Communications and Technology; Alex 
Miller, Video Production Aide and Press Assistant; Evan Viau, 
Legislative Clerk, Communications and Technology; Hamlin Wade, 
Special Advisor, External Affairs; Sean Farrell, Professional 
Staff, Communications and Technology; Jeff Carroll, Minority 
Staff Director; Alex Debianchi, Minority Telecom Fellow; Evan 
Gilbert, Minority Press Assistant; David Goldman, Minority 
Chief Counsel, Communications and Technology; Tiffany 
Guarascio, Minority Deputy Staff Director and Chief Health 
Advisor; Jerry Leverich, Minority Counsel; Jourdan Lewis, 
Minority Staff Assistant; Lori, Maarbjerg, Minority FCC 
Detailee; Jessica Martinez, Minority Outreach and Member 
Services Coordinator; Dan Miller, Minority Policy Analyst; Tim 
Robinson, Minority Chief Counsel; Andrew Souvall, Minority 
Director of Communications, Outreach and Member Services; and 
C.J. Young, Minority Press Secretary.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. And the chair recognizes 
herself for 5 minutes for an opening statement.
    And I do want to welcome each and every one of you, 
obviously a hearing of interest as we have a full room in front 
of us. And it is our first hearing in 2017 with a fully formed 
Federal Communications Commission.
    As often seems to be the case, the Senate takes their dear, 
ever-loving time to get things done, but I am pleased to see 
that the Commission is back up to speed. And I will tell you, I 
am pleased that we have five members of this Commission, and 
they have different points of view to bring to the discussion 
on all things telecom related. And I think that that is healthy 
for the telecommunications and technology industry.
    And we are here today to conduct oversight of the agency, 
which is this subcommittee's primary role. It is very important 
that we fulfill these obligations, because we have given the 
FCC a critical mission and critical task to fulfill. From the 
Commission's disaster response efforts, to its work supporting 
the deployment of rural broadband, to its efforts to streamline 
and modernize the regulatory environment impacting some of 
America's greatest creators and innovators, you are all doing 
important work, and we appreciate what you do.
    One of the FCC's many jobs is to regulate broadcasters who 
accept and fulfill unique public interest obligations due to 
their use of valuable public spectrum. While we were in the 
final stages of planning for this routine oversight hearing, 
some of my colleagues asked that the committee hold an entire 
hearing about comments by the President on Twitter regarding 
certain broadcasters' work. So I fully expect them to question 
the Trump tweets.
    And, Chairman Pai, since we have a very full slate of 
issues, my hope is that you will address that concern so that 
we can focus on the work and responsibilities of the 
Commission.
    The Commission has conducted entirely appropriate oversight 
of broadcast licenses. There is no indication it has any 
interest in regulating political content, unlike some in our 
chamber who have urged the FCC to adopt a new fairness doctrine 
mandating that broadcasters provide equal time to the 
opposition if they allow anyone to express any type of 
political opinion on air.
    The outrage over the President's Twitter musing stands in 
sharp contrast to the silence as Twitter cuts off the voices of 
conservatives, sexual assault victims, and potentially anyone 
who posts something they just don't like for whatever reason, 
all this on a platform so powerful and far-reaching that you 
could argue that it is the modern day public square. And some 
on Twitter have even called to suspend the President's account. 
And after my recent experience, I will say I wouldn't put it 
past some people.
    The latest Twitter scandal is an attempt to distract from 
the Commission and the American people from the FCC's real 
work, which is delivering on a mission to unleash American 
innovation.
    So, Chairman Pai, no matter what questions are said, I hope 
that we are going to stick to keeping our eye on the ball and 
making certain that we address things like media ownership 
rules, the Lifeline program, the imperatives of expanding rural 
broadband, and restoring a free and open internet. That is 
something that we want to see done by the end of this year.
    And at this time, I yield 1 minute to the vice chairman of 
the subcommittee, Mr. Lance.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good afternoon and welcome to our first hearing in 2017 
with a fully formed Federal Communications Commission. As often 
seems to be the case, the Senate has taken its time, but I'm 
pleased to see the Commission back up to speed with five vastly 
different opinions about everything telecom-related. We're here 
today to conduct oversight of the agency, which is this 
subcommittee's primary role.
    It is very important that we fulfill our oversight 
responsibilities, because we have given the FCC a critical 
mission and critical tasks to fulfill. From the Commission's 
disaster response efforts, to its work supporting the 
deployment of rural broadband, to its efforts to streamline and 
modernize the regulatory environment impacting some of 
America's greatest creators and innovators, you are all doing 
important work, and we appreciate it.
    One of the FCC's many jobs is to regulate broadcasters, who 
accept and fulfill unique public interest obligations due to 
their use of valuable public spectrum. While we were in the 
final stages of planning for this routine oversight hearing, my 
Democratic colleagues asked the Committee to hold an entire 
hearing about comments by the President on Twitter regarding 
certain broadcasters' work.
    So I fully expect them to use this opportunity to try to 
turn this hearing into the Trump Tweet hearing. Chairman Pai, 
since we have a very full slate of issues, my hope is that you 
will address that concern so we can focus on the work of the 
Commission.
    This Commission has conducted entirely appropriate 
oversight of broadcast licensees. There is no indication it has 
any interest in regulating political content, unlike some of my 
Democratic colleagues who have urged the FCC to adopt a new 
Fairness Doctrine, mandating that broadcasters provide equal 
time to the opposition if they allow anyone to express any type 
of political opinion on air.
    The outrage over the President's Twitter musings stands in 
sharp contrast to the silence as Twitter cuts off the voices of 
conservatives, sexual assault victims, and potentially anyone 
who posts something they just don't like for whatever reason. 
All this on a platform so powerful and far-reaching that you 
could argue it serves as a modern day public square.
    Some left wingers on Twitter have even called for the 
company to ban the President's account. After my recent 
experience, all I will say is I wouldn't put it past them. The 
latest Twitter ``scandal'' is an attempt to distract both the 
Commission and the American people from the FCC's real work: 
delivering on its mission to unleash American innovation.
    Chairman Pai, no matter what loaded YES OR NO questions may 
be posed today, or what insinuations are made about a would-be 
plot by the FCC to crack down on political speech, I urge you 
not to be distracted. Keep your eye on the ball. We are waiting 
for important reforms to address the media ownership rules, the 
Lifeline program, the imperatives of expanding rural broadband 
and restoring a free and open Internet, and we want to see them 
by the end of this year.

    Mr. Lance. Thank you very much, Chair. And welcome to 
Chairman Pai and the now full complement of commissioners. What 
a good-looking group. Thank you for appearing before us today.
    Since our last oversight hearing in July, the Commission 
has continued its important work on issues such as disaster 
relief and recovery in the communities affected by the recent 
hurricanes, commercial spectrum availability, fraud prevention 
in closing the digital divide. The Commission is also moving 
forward in the process to roll back the misguided Title II 
reclassification of ISPs from the previous administration.
    Here on the subcommittee, we have recently taken a 
bipartisan step forward in reauthorizing the FCC for the first 
time since 1990. I applaud the chairman and ranking member for 
their leadership in reasserting this vital oversight tool. I 
also thank Commissioner O'Rielly for joining me in the district 
I serve in August for a 5G industry roundtable. I commend his 
leadership at the Commission pursuing innovation-friendly 
spectrum and infrastructure policies that will be important in 
our efforts to win the race to 5G.
    Thank you all for being here, and I look forward to your 
testimony.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this 
hearing. And thank you to all the witnesses for appearing 
before us today. Let me just say that I really enjoy our time 
here together, as I am sure all of you do. And I would 
encourage the chairman to continue to hold these get-togethers 
far more often.
    Mrs. Blackburn. Absolutely.
    Mr. Doyle. Commissioner Rosenworcel, welcome back. Your 
work on the homework gap has been missed.
    Commissioner Carr, congratulations on your confirmation. I 
hope that as you establish your agenda, that you remember that 
the guiding principle of the FCC is to act in the public's 
interest. It is a standard that I will hold you to as well.
    Chairman Pai, many people around the country, including 
myself, and many of colleagues are deeply alarmed by your 
response to the President Trump's threats against the media, 
and specifically his tweet threatening NBC. In 2014, you wrote 
in The Wall Street Journal that the government has no place 
pressuring media organizations into covering certain stories. 
You took 6 days to respond to the President's tweet. And when 
you did, you did not directly address the President's threat at 
all or its chilling effects on the media.
    While the President and the administration can dispute the 
veracity of any story, even ones that are demonstrably true, 
they cannot attack the free institutions that enable our 
democracy. As Senator Flake said yesterday, it is time for our 
complicity and our accommodation of the unacceptable to end.
    Besides this issue, the Commission's agenda under your 
leadership has already had a profoundly negative effect on our 
country. From increasing cost on small businesses, driving up 
the cost of calls to family members in prison, and claiming 
that wireless broadband is competitive, even when people in 
rural America know it is not, it seems that in every fork of 
the road you have chosen the path that leads to higher consumer 
cost, fewer choices, and less innovation. And if it sounds as 
if the worst is yet to come, news reports suggest that you 
unveil plans tomorrow to vastly alter the media landscape in 
this country, clearing the way for more media consolidation, 
including the Sinclair-Tribune merger.
    Yesterday, the Commission eliminated the main studio rule 
that had ensured for 77 years that local news was gathered and 
reported locally. What good would a studio and reporters in New 
York have done for broadcast stations in Houston or Florida 
after the hurricanes? What good is local news if it isn't 
local? Other news reports suggest you will announce an order to 
repeal the FCC's open internet order around Thanksgiving.
    Madam Chairman, I sincerely hope that, if this true, that 
we have a chance to talk to the Commission in advance of a vote 
on that order. The idea that such a significant order that 
would affect so much of our economy would be voted on without 
oversight is unconscionable and would be a dereliction of this 
committee's duties. If the chairman is intent to act, I believe 
that his actions should be done under the scrutiny of Congress 
and in the light of the public.
    That concludes what I want to say. And I am going to yield 
the remaining part of my time to Ms. Eshoo.
    Ms. Eshoo. I thank the gentleman for yielding his remaining 
time to me.
    I want to associate myself with our ranking member's 
comments, particularly to what the President said that was a 
direct assault on the First Amendment and, with all due respect 
to you, Mr. Chairman, your delayed and rather tepid response to 
that. I want to place verbally in the record the First 
Amendment of the Constitution of our country.
    It was written, adopted by----
    Mrs. Blackburn. Without objection.
    Ms. Eshoo. Thank you--December 15, 1791. It is as new and 
as important today as the day that it was adopted.
    Congress shall make no law respecting an establishment of 
religion or prohibiting the free exercise thereof or abridging 
the freedom of speech or of the press--they were very clear. 
They were very clear--or the right of the people peaceably to 
assemble and to petition the government for a redress of 
grievances.
    I hope you will choose to enlarge on the public statement 
that you put out.
    And with that, I will yield back the balance of my time.
    Mrs. Blackburn. The gentlelady yields back to the ranking 
member.
    Mr. Doyle. And I yield back.
    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize the Chairman of the full Energy 
and Commerce Committee, Mr. Walden, who has been in the chair 
all day along with the hearing downstairs.
    The gentleman is recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you, Madam Chair. And I want to 
welcome especially Commissioner Carr. Welcome aboard. We are 
glad to have you here for the first time in this capacity. And 
welcome back Commissioner Rosenworcel. It is sure good to see 
you on the Commission. And we look forward to continuing our 
work with you and the other members. Chairman Pai, thank you 
too for being here and for your leadership.
    I couldn't agree more with Chairman Blackburn that this 
Commission has some very, very important work to do. The United 
States has weathered a large share of natural disasters this 
year, including wildfires that have devastated literally 
hundreds of thousands of acres in my home state. And we know 
the tragedies all across the West from these fires. These 
catastrophic weather events have shown the importance of 
maintaining the most reliable and modern communication systems 
possible. And we certainly owe the work many of us were engaged 
in on FirstNet and going clear back to 2012, and we need to 
make sure that works as planned.
    I look forward to hearing updates on the agency's 
contributions to the overall Federal relief efforts underway in 
these areas as well as those impacted by Hurricanes Irma, 
Harvey, and Maria, although some of the affected areas are 
almost back up to speed, which is great, thanks to a lot of 
hard work on both industry and government. We know we are 
facing enormous challenges elsewhere in restoring essential 
services, in places like Puerto Rico and the Virgin Islands, as 
well as others here on the mainland.
    We appreciate the Commission's efforts to streamline 
permitting, advance funding, and provide much needed assistance 
in these situations. We also appreciate the Commission's work 
to keep us informed through a bipartisan, bicameral briefing on 
FCC hurricane response efforts that we requested and that 
Chairman Pai's team quickly provided at the beginning of this 
month. Thank you for doing that.
    As 2017 draws to a close, we find ourselves waiting on a 
number of key items to emerge from the Commission. In no way 
does this committee expect our oversight to delay the 
Commission's important work. Rather, hearings like this are 
vital to keeping open the lines of communication and exposing 
commissioners and committee members alike to different 
perspectives, yielding better understanding and better 
decision-making. But we expect the Commission's work to go 
regardless, just as it did under the previous administration.
    The subcommittee continues its work as well having just 
finished a markup on an FCC reauthorization bill for the first 
time in many years. I want to thank my colleagues on both sides 
of the aisle for their work on this effort as we continue to 
move toward full committee markup soon.
    Last month, we held a hearing on the challenges and 
opportunities presented by the repacking process that the 
Commission has embarked upon. I commend the Commission's 
continuing efforts to release funding and work with every 
broadcaster to ensure their needs are being met as this 
transition evolves in a timely manner. Your input has been and 
will continue to be extremely important to this committee as we 
look at options to solve the remaining issues. And we certainly 
know there are some out there.
    Some of my colleagues may wish to use this opportunity as a 
forum to rehash, once again, the arguments for dumping cutting 
edge broadband internet service into the stale, musty bucket 
that is Title II. In any case, if anyone was wondering, my 
position hasn't changed on that, and I don't sense others have.
    This Commission should not be dissuaded in any way by the 
previous Commission's partisan maneuver, which upended stacks 
of Commission precedent, disregard reams of legislative history 
to achieve the results that were demanded by then President 
Barack Obama. It is up to the Commission to set the optimal 
regulatory conditions to fuel broadband investment and 
deployment. And I hope to see a new bar set in this regard 
before the end of the year.
    Ultimately, Congress is the appropriate forum to settle the 
net neutrality debate. I think you hear a little of that 
passion here on both sides. And I have been continuing my 
efforts to negotiate a compromise. Although my staff continues 
to engage the various affected parties in productive 
discussions toward that end, my colleagues in the minority 
have, unfortunately, seemed largely uninterested at this point. 
I would love to see that change, by the way. The door remains 
open.
    We are willing and able to codify net neutrality 
protections and establish a Federal framework in statute for 
providing certainty to all participants in the internet 
ecosystem. I don't think we need Title II to do that. We have 
the same end goal: Preserving the internet as a free, open, 
dynamic environment to unleash innovation and drive our 
economy, while also doing everything we can to extend its 
benefits to every American. We should be able to work together 
to clear this issue off our plates.
    With that, again, I thank the Commission for being here 
today. We are glad to see you fully constituted and confirmed. 
And as you can imagine, we have a lot of issues to hear from 
you on and to have good discourse back and forth. So thanks 
again.
    And with that, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Madam Chairman. I'd like to welcome Commissioner 
Carr for the first time, and welcome back Commissioner 
Rosenworcel as this subcommittee continues in its long 
tradition of active oversight of the FCC.
    I couldn't agree more with Chairman Blackburn that this 
commission has some very important work to do. The United 
States has weathered a large share of natural disasters this 
year, including the wildfires that have devastated hundreds of 
thousands of acres in Oregon and across much of the West. These 
catastrophic weather events have shown the importance of 
maintaining the most reliable and modern communications 
systems, particularly in emergencies.
    I look forward to hearing updates on the agency's 
contributions to the overall federal relief efforts underway in 
these areas as well as those impacted by Hurricanes Harvey, 
Irma, and Maria. Although some of the affected areas are almost 
back up to speed, thanks to a lot of hard work on the part of 
both industry and government, we are facing enormous challenges 
in restoring essential services in other areas.
    We appreciate the commission's efforts to streamline 
permitting, advance funding, and provide much needed 
assistance. We also appreciate the commission's work to keep us 
informed, through a bipartisan, bicameral briefing on FCC 
hurricane response efforts that we requested and that Chairman 
Pai's team quickly provided at the beginning of this month.
    As 2017 draws to a close, we find ourselves waiting on a 
number of key items to emerge from the commission. In no way 
does this committee expect our oversight to delay the 
commission's important work.
    Rather, hearings like this are vital to keeping open the 
lines of communication and exposing commissioners and committee 
members alike to different perspectives, yielding better 
understanding and better decision making. But we expect the 
commission's work to go on regardless, just as it did under the 
previous Administration.
    The subcommittee continues its work as well, having just 
finished a markup of an FCC reauthorization bill for the first 
time in many years. I want to thank my colleagues on both sides 
of the aisle for working with us to see this effort through, 
and continuing that work as we move toward full committee 
markup.
    Last month, we held a hearing on the challenges and 
opportunities presented by the repacking process the commission 
has embarked upon.
    I commend the commission's continuing efforts to release 
funding and work with every broadcaster to ensure their needs 
are being met as this transition evolves in a timely manner. 
Your input has been, and will continue to be, extremely 
valuable as this committee explores initiatives to solve for 
the issues that still remain.
    Some of my colleagues may wish to use this opportunity as a 
forum to rehash once again the arguments for dumping cutting-
edge broadband Internet service into the stale, musty bucket 
that is Title II. In case anyone was wondering, my position on 
this has not changed.
    This commission should not be dissuaded in any way by the 
previous commission's partisan maneuver, which upended stacks 
of commission precedent and disregarded reams of legislative 
history to achieve the result demanded by President Obama.
    It is up to the commission to set the optimal regulatory 
conditions to fuel broadband investment and deployment, and I 
hope to see a new bar set in this regard before the end of the 
year.
    Ultimately, Congress is the appropriate forum to settle the 
net neutrality debate. And I have been continuing my efforts to 
negotiate a compromise. Although my staff continues to engage 
with the various affected parties in productive discussions 
toward that end, my colleagues in the minority have been 
largely uninterested. I would love to see that change.
    We are willing and able to codify net neutrality 
protections and establish a federal framework providing 
certainty to all participants in the Internet ecosystem, and we 
don't need Title II to do it.
    We have the same end goal: preserving the Internet as a 
free, open, dynamic environment to unleash innovation and drive 
our economy, while also doing everything we can to extend its 
benefits to every American. We should be able to work together 
and clear this issue off our plates.

    Mrs. Blackburn. The gentleman yields back.
    Anyone seeking the remainder of the chairman's time?
    No one else. The gentleman yields back.
    At this time, Mr. Pallone, you are recognized for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman and Ranking Member 
Doyle, for holding this hearing today. And I appreciate that 
you are maintaining the subcommittee's tradition of oversight 
of the FCC. I know some people here today would prefer you 
wouldn't.
    Congressional oversight is especially important now because 
the FCC is on a path to take up a number of controversial 
issues in the next few months. Nonetheless, it is curious that 
this hearing is scheduled for today in particular, just one day 
before Chairman Pai is expected to make public at least one 
proposal that enriches a single company above others, and that 
would clear out any last obstacles to Sinclair broadcasting's 
purchase of Tribune Media Company. This will be the single 
largest owner of television broadcast station, and they would 
be buying the second largest.
    So Chairman Pai has claimed repeatedly that it is simply 
coincidence that his actions are all timed to benefit Sinclair. 
But if that was the case, why can't the members of this 
committee see the latest proposal that he plans to circulate 
tomorrow before the Commission came before us? And now Chairman 
Pai has refused repeatedly to respond to my questions about 
allegations about his relationship with Sinclair. And this kind 
of evasiveness with Congress does not help put anyone's 
concerns to rest. These moves are just another example of how 
this FCC values large companies over small ones and always puts 
companies before consumers.
    The most glaring example of this, of course, is Chairman 
Pai's commitment to eviscerate net neutrality protections by 
the end of this year. Net neutrality protects consumers, 
protects small businesses, and protects free speech. And I hope 
that the FCC is spending this time reviewing the millions of 
comments that had been filed, including comments from the 
Democratic members of this committee. And I also hope the FCC 
considers the thousands of consumer complaints that have been 
made public since the comment period closed. These complaints 
demonstrate that consumer problems with broadband providers is 
much farther reaching than the FCC's proposed rulemaking lets 
on.
    Now, together, these items have the potential to 
drastically remake the way Americans communicate. And in taking 
on these issues, the FCC must find a way to insulate itself 
from the political pressures from the President. Chairman Pai 
has claimed that he has restored independence to the FCC, yet 
he refuses repeatedly to put any distance between himself and 
President Trump, whether it is net neutrality, Sinclair, or 
even protecting a free press. And that evasiveness does not 
inspire confidence.
    I have said many times, and I think I have told some of the 
Commission members, that I remember earlier this year when Sean 
Spicer was at a press conference and he said that the President 
would have the FCC repeal net neutrality before the FCC even 
addressed the issue. So, again, it just seems that everything 
is, whatever the President wants, and there is really no 
independence at all on net neutrality or the other issues. And 
the FCC has a long tradition of bipartisanship. But, 
unfortunately, that is simply not the case today. Hardworking 
American consumers and future Congresses are sure to take a dim 
view of the current partisan politics at the FCC, and it is 
time to restore that bipartisan tradition.
    But, again, I thank the chairman and the commissioners for 
all being here today. And I would like to yield a minute each 
to Mr. McNerney and Matsui. I guess I will start with McNerney.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Madam Chairman and Ranking Member Doyle for 
holding this hearing today. I appreciate that you are 
maintaining this subcommittee's tradition of oversight of the 
FCC--I know some people here today would prefer you wouldn't.
    Congressional oversight is especially important now because 
the FCC is on a path to take up a number of controversial 
issues in the next few months. Nonetheless, it's curious that 
this hearing is scheduled for today in particular--just one day 
before Chairman Pai is expected to make public at least one 
proposal that enriches a single company above others, and that 
would clear out any last obstacles to Sinclair Broadcasting's 
purchase of Tribune Media Company. This would be the single 
largest owner of television broadcast stations buying the 
second largest.
    Chairman Pai has claimed repeatedly that it is simply 
coincidence that his actions are all timed to benefit Sinclair. 
But if that was the case, why can't the members of the 
Committee see his latest proposals that he plans to circulate 
tomorrow before the Commission came before us? And now Chairman 
Pai has refused repeatedly to respond to my questions about 
allegations about his relationship with Sinclair. This kind of 
evasiveness with Congress does not help put anyone's concerns 
to rest.
    These moves are just another example of how this FCC values 
large companies over small ones and always puts companies 
before consumers. The most glaring example of this, of course, 
is Chairman Pai's commitment to eviscerate net neutrality 
protections by the end of the year.
    Net neutrality protects consumers, protects small 
businesses, and protects free speech. I hope that the FCC is 
spending this time reviewing the millions of comments that have 
been filed, including comments from the Democratic members of 
this Committee. I also hope the FCC considers the thousands of 
consumer complaints that have been made public since the 
comment period closed. These complaints demonstrate that 
consumers' problems with broadband providers is much farther 
reaching than the FCC's Proposed Rulemaking let on.
    Together, these items have the potential to drastically 
remake the way Americans communicate. And in taking on these 
issues, the FCC must find a way to insulate itself from the 
political pressures from the President. Chairman Pai has 
claimed that he has restored independence to the FCC. Yet he 
refuses-repeatedly-to put any distance between himself and 
President Trump, whether it is net neutrality, Sinclair, or 
even protecting a free press. That evasiveness does not inspire 
confidence.
    The FCC has a long tradition of bipartisanship, but 
unfortunately that is simply not the case today. Hardworking 
American consumers and future Congresses are sure to take a dim 
view of the current partisan politics at the FCC. It's time to 
restore that bipartisan tradition.
    I thank the Chairman and Commissioners for appearing before 
us today. And with that, I yield back.

    Mr. McNerney. Well, I thank the ranking member for 
yielding.
    I have noticed a troubling trend in the FCC's recent 
actions. The very core of the FCC's mission is in the public 
interest. In fact, the words ``public interest'' appear over 
100 times in the Communications Act. But by taking steps to 
limit access to information and content, the Commission has 
gone against what I think is the public's interest. This is 
evidenced by the Commission's current efforts to dismantle net 
neutrality protections. It is further evidenced by the steps 
the Commission has taken to undercut localism from reinstating 
UHF discount to eliminate the main studio rule. These and other 
actions signaling favorable treatment for Sinclair.
    And then there was the chairman's initial silence regarding 
the President's threat to revoke broadcast licenses on the 
basis of viewpoints, followed by the chairman reluctantly 
making a statement, but one that was too late and insufficient. 
I am disappointed in these actions and the effect that they 
will have on the information my constituents and Americans 
across the country have access to.
    With that, I yield to Ms. Matsui.
    Ms. Matsui. Thank you very much. Thank you for yielding.
    In order to expand broadband deployment across this 
country, it is critically important that we accelerate our work 
to free up spectrum for commercial use. Additional spectrum is 
necessary both to expand wireless coverage across rural America 
and build capacity across all of America. We must also focus on 
locking more spectrum frequencies that will allow new and 
innovative technologies to grow. This means everything from 
precision agriculture, public safety communications, telehealth 
services, the Internet of Things, and connected devices. All of 
this to rely on access to spectrum's invisible infrastructure 
of the 21st century.
    Access to the spectrum would depend on the FCC conducting 
auctions that will allow additional low-, mid-, and high-band 
spectrum to be delivered to commercial users. That is why 
Congressman Guthrie and I introduced the Spectrum Auction 
Deposits Act yesterday. Without this fix, future auctions may 
be put on hold indefinitely. And I look forward to working with 
Chairman Pai, the committee, and Congressman Guthrie to work 
together to enact this into law.
    And with that, I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    And I see no other members requesting time, so this 
concludes our opening statements.
    I would like to remind members that, pursuant to the 
committee rules, all members' opening statements will be made a 
part of the record.
    We want to thank our witnesses for taking the time to be 
here today and for preparing for the hearing, submitting your 
testimony. We do appreciate this. Today's witnesses will have 
the opportunity to give opening statements, followed by the 
questions that are going to come from our members.
    Our witness panel for today's hearing: The Honorable 
Brendan Carr, Commissioner Clyburn, Chairman Pai, Commissioner 
O'Rielly, Commissioner Rosenworcel. We appreciate that you all 
are here for this.
    And as the tradition of this subcommittee, we will go in 
the order of seniority. So, Chairman Pai, you will be first, 
followed by Commissioner Clyburn, and then Mr. O'Rielly, Mr. 
Carr, and Ms. Rosenworcel.
    So, Chairman Pai, you are recognized for 5 minutes for an 
opening statement.

   STATEMENTS OF AJIT PAI, CHAIRMAN, FEDERAL COMMUNICATIONS 
       COMMISSION; MIGNON CLYBURN, COMMISSIONER, FEDERAL 
  COMMUNICATIONS COMMISSION; MICHAEL O'RIELLY, COMMISSIONER, 
FEDERAL COMMUNICATIONS COMMISSION; BRENDAN CARR, COMMISSIONER, 
  FEDERAL COMMUNICATIONS COMMISSION; AND JESSICA ROSENWORCEL, 
        COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION

                     STATEMENT OF AJIT PAI

    Mr. Pai. Thank you. Chairman Blackburn, Ranking Member 
Doyle, members of the subcommittee, thank you for holding this 
hearing today. I appreciate this opportunity to update you on 
the FCC's work to advance the public interest.
    That work has been substantial. In my written statement, I 
outlined progress in four key areas: Promoting public safety, 
bridging the digital divide, modernizing our regulations, and 
combatting unwanted robocalls. Additionally, I commended the 
subcommittee for its work on reauthorizing the FCC.
    Of particular importance is the provision just mentioned by 
Congresswoman Matsui that would allow the deposits placed by 
bidders in spectrum auctions to be sent to the Treasury. 
Without this measure, the FCC won't be able to launch a large 
spectrum auction for the foreseeable future.
    But this morning, I would like to address an area of 
concern for all members and for me: The First Amendment. I have 
said again and again and again that the First Amendment must be 
at the heart of our work. That is why I oppose the prior FCC's 
critical information needs study, an ill-conceived initiative 
which would have involved sending government funded agents into 
newsrooms to second-guess editorial judgment. And that is why 
just last month I spoke at the Newseum about the importance of 
the First Amendment.
    My record on these issues is clear. And these issues are 
not new. President Kennedy targeted The Washington Post and NBC 
directly telling one of my predecessors that a particular story 
was outrageous and to, quote, ``do something about it.'' More 
recently, some have said that the FCC should reject a 
transaction involving the transfer of FCC broadcast licenses 
because of editorial judgments. And six members of this very 
committee, including the current ranking members of the 
committee and subcommittee, once demanded that the FCC 
investigate a broadcaster based solely on the content of a 
documentary that they didn't like and that hadn't even aired.
    Let me be clear. I stand on the side of the First 
Amendment. I firmly believe that journalists should heed to 
their viewers, their listeners, and their readers, not the 
dictates of officials in Washington, D.C. But don't just trust 
my words. For if you believe, as I do, that the Federal 
Government has no business intervening in the news, then we 
must stop the Federal Government from intervening in the news 
business. And that is why this afternoon I shared with my 
fellow commissioners an order that will reform our media 
ownership rules and help pull the government, once and for all, 
out of the newsroom. We will vote on this order at our November 
16 meeting.
    The marketplace today is nothing like it was in 1975. 
Newspapers are shutting down. Many a radio and TV stations are 
struggling, especially in smaller and rural markets. Online 
competition for the collection and distribution of news is even 
greater than it ever was. And just two internet companies claim 
100 percent of recent online advertising growth. Indeed, their 
digital ad revenue alone this year will be greater than the 
market cap of the entire broadcasting industry. And yet the 
FCC's rules still presume that the market is defined entirely 
by pulp and rabbit ears. As one newspaper has put it, making 
the argument that the current rules are outdated is easy. That 
radical right wing rag was The New York Times in 2003.
    Now, if this order is adopted, the FCC will belatedly 
recognize reality and match our rules to the modern 
marketplace. First, the order will, once and for all, eliminate 
the newspaper broadcast cross-ownership rule. As President 
Clinton's first FCC chairman has explained, under current 
conditions in the media business, the FCC's rule is perverse. 
And the Third Circuit has said that it remains at, quote, 
significant expense to pro-competitive arrangements.
    Second, the item will eliminate the radio-television cross-
ownership rule, which is unnecessary into today's marketplace 
given the Commission's separate local radio and local 
television ownership rules.
    Third, it will revise the local television ownership rule 
to eliminate the eight-voices test and incorporate a case-by-
case review of the top-four prohibition. This better reflects 
the competitive conditions in local markets.
    Fourth, it will eliminate the attribution rule for 
television joint sales agreements, finding that JSAs serve the 
public interest by allowing broadcasters to better serve their 
local markets.
    Fifth, it will retain the disclosure requirement for shared 
services agreements involving commercial television stations.
    And, sixth, it will finally, finally, establish an 
incubator program to encourage greater diversity in and new 
entry into the media business and seek comment on what the 
details of that program should be. And unlike under the prior 
administration, I have ordered that the text of this decision 
be made publicly available tomorrow, 3 weeks before we vote on 
it. That too is news that is fit to print.
    Chairman Blackburn, Ranking Member Doyle, members of the 
committee, thank you once again for holding this hearing, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Pai follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mrs. Blackburn. We thank the chairman.
    Commissioner Clyburn, you are recognized for 5 minutes.

                  STATEMENT OF MIGNON CLYBURN

    Ms. Clyburn. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, good afternoon, and thank you for 
the opportunity to once again appear before you today.
    We are 9 months into a new administration, making it 
appropriate, I believe, to reflect on the tremendous change 
that has taken place when it comes to our outlook on consumers, 
competition, and viewpoint diversity. Beyond the Washington 
acronyms, inside of the beltway jargon and flashy press 
headlines, are a series of actions, I fear, that are 
jeopardizing the FCC's role as the referee on the field 
protecting consumers and small business interests.
    Now, I ask you not to take my word about this. In my hand 
are 80 mostly handwritten letters I have received in the recent 
months. They express concern ranging from open internet and 
proposed mergers to inmate calling and a lack of affordable 
broadband in their communities. Amid the many policy changes, 
what may have gone unnoticed are the enforcement actions that 
we have failed to take against the Nation's largest regulatees, 
where they have violated the public trust and the Commission's 
rules.
    In March, for example, millions of consumers were unable to 
call 911 for 5 hours. Similar outages in the past few years 
resulted in the Commission collectively fining companies more 
than $30 million. These past fines were a recognition that we 
depend on 911 being available during times of greatest need. 
How did the current FCC handle this year's outage, one of the 
largest fines ever? No penalty and no report that addressed the 
question of whether the Commission's rules were violated.
    Now, I am all for taking enforcement action whenever the 
public's trust has been violated. But what is clear is that the 
majority's focus is on targeting individuals and small 
businesses, where we are least likely to collect any fines.
    Turning to policy. It is a source of great disappointment 
that as we approach the holiday season, 2.7 million children 
continue to wait for this agency to make good on its word to 
bring about real reform when it comes to the inmate calling 
regime. In April, the FCC majority welcomed Industry 
Consolidation Month by reinstating the technologically obsolete 
UHF discount. The result: Opening the door for a single 
broadcast station group to reach more than 70 percent of the 
television households. In that same month, we paved the way for 
huge rate hikes on business data services, formerly known as 
special access, that will not only negatively impact small 
businesses but rural hospitals, schools, libraries, and police 
departments as well. Instead of looking out for millions of 
little guys, the Commission's majority once again chose to 
align with an interest of a handful of multibillion dollar 
providers.
    In August, we began an inquiry that may actually put us on 
a path of lowering the bar for what we now consider to be high-
speed broadband. As I travel across this country, the refrain I 
hear is that service is too expensive and speeds are too low. 
We should be aiming to lead the world in having the fastest, 
most robust broadband, not heading in the opposite direction by 
green-lighting broadband service at excruciatingly slow snail-
like speeds.
    Now, last month, we took another worrisome turn with the 
adoption of our latest mobile competition report. Ask those 
that I have met in rural America who are struggling with 2G and 
3G service. What they want is reliable wireless connectivity. 
What they have is lackluster noncompetitive service, simply 
put.
    Our reports' findings do not match the experiences on the 
ground and in the communities across this great Nation. And if 
I am to believe the reports that I am hearing and reading, in 
just a matter of days, as you have heard, the chairman will 
circulate a series of items that include rolling back the best 
elements of our media ownership rules. If true, the already 
consolidated broadcast media market will become even more so, 
offering little to no discernible benefits for consumers.
    Our actions, most often the ones that fail to make the 
headlines, have real everyday consequences. And while I keep 
and will keep doing everything in my power to make sure that we 
do not dial back any further when it comes to consumer 
protections, just, reasonable, and fair phone rates for all of 
our citizens, media ownership opportunities, and digital 
inclusion, I remain fearful, in part, because the rhetoric is 
not in line with the actions. I have submitted a longer 
statement for the record.
    But once again, allow me to thank the subcommittee for 
providing me the opportunity to testify today. I look forward, 
I believe, to answering any questions you may have.
    [The prepared statement of Ms. Clyburn follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Mrs. Blackburn. Commissioner Clyburn, you always look 
forward to the questions, and we are delighted you are here.
    Commissioner O'Rielly, you are recognized for 5 minutes.

                 STATEMENT OF MICHAEL O'RIELLY

    Mr. O'Rielly. Thank you, Mr. Chairman.
    Good afternoon. It is a pleasure to be before the 
subcommittee once again as it conducts further oversight of the 
Federal Communications Commission.
    Before I discuss certain policy and other matters, I would 
like to address the recent tweets by the President of the 
United States raising matters within the purview of this FCC. 
Let me be clear, I do not speak for the President, and I have 
never met him. However, I think it is fair to say that the new 
President and his administration have received what can be most 
kindly called unbalanced coverage from various media sources. 
But you don't have to take my word for it or corresponding 
studies showing the same. Former President Carter stated over 
the weekend: I think the media have been harder on Trump than 
any other President, certainly that I have known about.
    With that said, I do not believe that the Commission's 
licensing decisions should be influenced or decided by 
politics. Similarly, like my objections to the cozy 
relationship between the past administration and the 
Commission, I continue to support the FCC as an independent 
agency. Moreover, I strongly believe in the Constitution of the 
United States, which includes the First Amendment, and have 
sworn to support and defend it as part of my oath of office. 
But this is somewhat immaterial, because the beauty of the 
Constitution is that it is the highest law of the land, and the 
rights that it affirms and provides supersede my belief or any 
action by the Commission. It serves to protect us all, even the 
unwitting bystander or active hostile.
    Turning to substantive matters. A top priority of mine is 
to ensure that the electromagnetic spectrum is being put to the 
most efficient use possible. My overall goal of this work is to 
position the United States and our wireless carriers for 
overall success in the coming years. We know that 
internationally several nations seek to corner the market on 
next generation wireless technologies, commonly known as 5G, to 
reap the economic benefits and dictate the world's wireless 
future. I intend to ensure that the United States' ingenuity 
and technological development are not unfairly hampered by 
others' quest for this premier position.
    Moreover, as the insatiable demands of consumers for more 
mobility and broadband offerings continue, the Commission has 
the arduous task of reclaiming, reallocating, clearing, and, in 
some cases, facilitating spectrum sharing. A prime location for 
such efforts is the mid-bands, including a 3.5, 3.7 to 4.2, and 
3.1 to 3.5 GHz bands. In terms of unlicensed spectrum, the time 
has come to determine whether the DSRC remains the best use of 
the 5.9 GHz band. If it no longer makes any sense, the 
Commission could combine the 5.9 GHz with the rest of the 5 GHz 
band and potentially the 6 GHz band to expand current 
unlicensed operations and promote continued growth.
    Once spectrum is made available, additional auctions will 
be needed to assign licenses. But as Chairman Pai testified, 
the Commission faces difficulty in securing a financial 
institution to meet the statutory requirements to hold our 
upfront auction payments. Without a willing partner or a change 
in law, the Commission believes that it is unable to announce a 
schedule for future spectrum auctions, much less hold an 
auction itself.
    While the subcommittee has included a technical fix within 
its larger reauthorization bill, it is possible that this 
larger legislation may take additional time. Accordingly, I 
want to thank Representatives Guthrie and Matsui for 
introducing the Spectrum Auction Deposits Act of 2017, a stand-
alone bill for this purpose, and express my support for moving 
this rifle shot approach as soon as possible.
    In terms of process reform, I believe that the Commission 
is more open and transparent now than it has been since I 
started following its activities. However, I continue to 
believe that additional changes to the Commission's procedures, 
both formal and informal, are necessary and prudent. On that 
note, the Commission's perpetual struggle over the excessive 
use of delegated authority continues. To rectify this, I have 
put forth what I consider to be a balanced plan to accommodate 
the competing interests of permitting commissioners to vote and 
resolving matters expeditiously. I would be pleased to work 
with the subcommittee on this and any other process reform 
ideas.
    I thank the members of the subcommittee for holding this 
hearing, and I look forward to answering any questions you may 
have. Thank you.
    [The prepared statement of Mr. O'Rielly follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mrs. Blackburn. The gentleman yields back. And so far, he 
is winning the prize for most time yielded back.
    Mr. Carr, you are recognized.

                   STATEMENT OF BRENDAN CARR

    Mr. Carr. Thank you.
    Chairman Blackburn, Ranking Member Doyle, distinguished 
members of the subcommittee, it is a privilege to appear before 
you today. This is a particular honor for me because this is my 
first opportunity to testify since I was sworn in as a 
commissioner in August. For the 8 months before that, I served 
as the general counsel of the FCC, after joining the agency 
originally as a staffer back in 2012.
    In my 5 years at the Commission, I have enjoyed working 
with you and your staffs on policies that promote the public 
interest. I want to commend you in particular for your efforts 
to enact bipartisan legislation, such as Kari's Law, the 
Improving Rural Call Quality and Reliability Act and, most 
recently, the markup of an FCC reauthorization bill.
    Having served in various roles in both the majority and the 
minority at the FCC, these experiences have instilled in me an 
appreciation for the importance of bipartisan consensus and 
working toward common ground. I commit to carrying that forward 
in my time on the Commission.
    In my testimony, I want to focus on the ways the FCC can 
continue to incentivize broadband deployment. This is 
particularly important as we make the transition to 5G, a shift 
that will require a massive investment in both wired and 
wireless infrastructure. But if we get the right policies in 
place, this transition could mean $275 billion in network 
investment, 3 million new jobs, and half a trillion added to 
the GDP.
    As I see it, there are at least three keys to getting 
there: Spectrum, infrastructure, and ensuring we have the 
skilled workforce in place to deploy these NexGen networks. 
First, we need to get more spectrum into the market. I am 
pleased the FCC is pressing forward on this front. We have a 
proceeding underway that is looking at broad swaths of spectrum 
between 3 and 24 GHz. And the chairman has announced that we 
will vote later this year on opening up additional bands above 
24 GHz. These are really great steps towards maintaining the 
United States' leadership in the global race to 5G.
    Second, we must modernize the Federal, State, and local 
regimes that currently govern broadband infrastructure 
deployment. 5G is going to require a 10- to 100-fold increase 
in the number of cell sites in this country. The current regime 
is simply not tailored to support this type of massive new 
deployment. It costs too much, it takes too long. So we need to 
find ways to drive the unnecessary regulatory costs out of the 
system, and we need to speed the timeline for obtaining 
regulatory approvals. Doing so will be particularly important 
for rural America.
    One recent study shows that regulatory reform can shift the 
business case for entire communities. Streamlining alone could 
make it economical for providers to deploy 5G to nearly 15 
million more homes than under the existing and more burdensome 
regime. The lion's share of those would be in less densely 
populated parts of the country.
    Third, we need the skilled workforce necessary to get this 
transition across the finish line. Last month, I participated 
in a roundtable hosted by the Wireless Infrastructure 
Association outside of Baltimore. A broad range of stakeholders 
from wireless companies to independent infrastructure providers 
all talked about the shortage of skilled workers that can 
deploy the small cells, distributed antenna systems and other 
infrastructure necessary for 5G.
    Now, while there is no direct regulatory role for the FCC 
here, I think we need to focus additional attention on this 
issue and potential solutions, including the role that 
apprenticeship and other job training programs can play. And to 
that end, I will be participating at an event next month at the 
Department of Labor on workforce development.
    One last point. While technology continues to evolve, one 
constant is the FCC's obligation to promote public safety. This 
has been highlighted in a most devastating of ways over the 
past 2 months with the hurricanes that have overwhelmed 
communities across the country and now currently with the 
wildfires that we see. The FCC has been working hard since well 
before the first hurricane made landfall. And Chairman Pai has 
kept the agency focused on the immediate task of supporting 
restoration efforts, including by forming a hurricane recovery 
task force that is coordinating the agency's work. Right now, 
the FCC is focused on the emergency situations in Puerto Rico 
and the U.S. Virgin Islands, while continuing to assess 
restoration efforts across the country. I will see some of 
those firsthand on Friday when I visit Houston to hold a 
roundtable with broadcasters, meet broadband providers, and 
visit a 911 call center. I will be taking stock of the progress 
that has been made and the ways the FCC can continue to support 
those efforts.
    So, Chairman Blackburn, Ranking Member Doyle, members of 
the subcommittee, thank you again for the opportunity to 
testify. I look forward to answering your questions.
    [The prepared statement of Mr. Carr follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      
    Mrs. Blackburn. Thank you, Commissioner Carr. You did well 
in your first appearance.
    Commissioner Rosenworcel, you are recognized for 5 minutes.

                STATEMENT OF JESSICA ROSENWORCEL

    Ms. Rosenworcel. Thank you.
    Good afternoon, Chairman Blackburn, Ranking Member Doyle, 
and the other members of the subcommittee. Thank you for the 
opportunity to be here today. This is my first appearance 
before you since returning to the FCC. I had a little vacation 
courtesy of your friends in the United States Senate.
    Of course, a little distance provides some perspective. And 
in my time off, one thing became abundantly clear: The future 
belongs to the connected. No matter who you are or where you 
live in this country, you need access to modern communications 
to have a fair shot at 21st century success. But the fact of 
the matter is that, today, too many Americans lack access to 
broadband. Let's put a number on it. Right now, 34 million 
Americans lack access to high speed-service. That number 
includes 23 million Americans living in rural areas. That is 
just not acceptable. We need to do better.
    But, of course, statistics alone don't tell the whole 
story. To get a picture of just what it means to be consigned 
to the wrong side of the digital divide, consider kids and 
homework. Today, 7 in 10 teachers assign homework that requires 
internet access. But data from the FCC show that as many as one 
in three households do not subscribe to broadband. Where those 
numbers overlap is what I call the homework gap. And according 
to the Senate Joint Economic Committee, the homework gap is 
real, and it affects 12 million children all across the 
country.
    I have heard from students in Texas who do their homework 
at fast-food restaurants with fries just to get a free WiFi 
signal. And I have heard from students in Pennsylvania who make 
elaborate plans every day to get to the homes of friends and 
relatives just to be able to get online. I have also heard from 
high school football players in rural New Mexico who linger in 
the school parking lot late at night in the pitch-black dark 
because it is the only place that they can get a reliable 
connection. These kids have grit, but it shouldn't be that 
hard, because, today, no child can be left offline.
    Developing digital skills is essential for education and 
for full participation in the modern economy. So I hope that 
adds a human dimension to what it means to not have access to 
broadband.
    Now, let me tell you what we can do about it. If we want to 
get serious about addressing our broadband problems, we need to 
know exactly where those problems are most pronounced. We need 
better mapping. Nearly 9 years ago, in the American Recovery 
and Reinvestment Act, Congress had a good idea. It created a 
national broadband map identifying where deployment has and has 
not occurred. But if you check that map online now, you will 
last see that it was updated 3 years ago. And I don't have to 
tell you, in the internet age, 3 years is an eternity.
    You cannot manage what you do not measure, so I think it is 
time for a national broadband map that offers an honest picture 
of both wired and wireless broadband across the country. And, 
of course, we can build this map with all sorts of datasets 
here in Washington. But I think it would be great if we had a 
clearer picture on the ground. I am a big believer in the 
wisdom of crowds, so I think we should put it to the public. If 
any of your constituents have not been able to get service or 
live in an area that lacks it, help us make that map and write 
us at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0567776a646167646b6163646c69456366662b626a732b">[email&#160;protected]</a>
    I set up this account to take in the public stories and 
ideas, and I will share everything that comes in with the 
chairman and my colleagues, because I think it is time to make 
every one of those broadband fails into something better: 
broadband success.
    Finally, I want to point out that, with broadband, speed 
matters. The FCC has a statutory duty to annually assess the 
state of broadband deployment. Today, our national standard is 
25 megabits. But the agency has sought comment on scaling this 
back to 10 megabits. That is crazy. We won't solve our 
broadband problems by lowering our standards. We need to 
correct this course immediately and start setting bigger goals 
if we want to do bigger things.
    Let me close by thanking you for having me at this hearing 
today. I look forward to answering any questions you may have.
    [The prepared statement of Ms. Rosenworcel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mrs. Blackburn. We thank everyone for the testimony. And 
this concludes our testimony portion, and we are going into the 
Q&A portion. And I will recognize myself for 5 minutes.
    Chairman Pai, I am going to come to you first. I want to 
stay with that freedom of speech theme. During the last 
administration, the Commission had proposed a multimarket study 
of critical information needs, and you had made the comment 
that you thought it thrust the Federal Government into the 
newsrooms across the country. And Chairman Upton, Chairman 
Walden, and many members on this subcommittee, including 
myself, sent Chairman Wheeler a letter calling the study what 
we thought would be unconstitutional, and urging him to put a 
stop to the attempt to engage the FCC as the news police. 
Fortunately, Chairman Wheeler did heed our call.
    And I want to know if he put a stop to it, but can you tell 
us more about that project? How close was it to actually 
happening? How much money got spent on that project?
    Mr. Pai. Thank you for the question, Chairman Blackburn, 
and thank you for your advocacy several years ago. The critical 
information needs study was a study that was conceived in the 
prior FCC. It spent approximately $900,000, as best I can 
discern it. And the project involved sending government-funded 
researchers into newsrooms to ask questions about why they were 
or were not covering eight different categories of news that 
the government thought were important, asking questions to news 
directors and the like about perceived bias, and asking a whole 
host of other intrusive questions.
    It seemed to me that this was not compatible with the 
agency's obligations under the First Amendment. And so I wrote 
up an op-ed about it. And I am grateful that Chairman Wheeler 
ultimately scrapped that study, but not before, as I said, a 
great deal of money had been expended and a rubicon of some 
sort had been crossed.
    Mrs. Blackburn. OK. Now, when Chairman Wheeler pulled the 
plug on it, the FCC said that some of the questions may not 
have been appropriate and that the Commission would be 
modifying the draft study. So what is the current status on 
this?
    Mr. Pai. That study will not proceed and--period.
    Mrs. Blackburn. OK. I just want to ask, for each of you on 
the Commission, is there anybody on this current Commission 
that would support such a study?
    Ms. Clyburn. Well, Madam Chairman, one of the things that I 
take issue with is how that was couched. I was a part of that 
study, which started out being a study of studies, looking at 
what the Commission gathered in terms of information about the 
entire media ecosystem. And as a result of us not having 
information, we have been kicked back several times to the 
court about not having justification, not having information, 
not having data. When it comes to certain policies, the court 
has spoken. We don't have the information needed. We are making 
decisions by putting a finger up in the wind and seeing where 
the political winds are flowing and going in terms of 
information, in terms of our decision-making.
    Mrs. Blackburn. OK.
    Ms. Clyburn. And that is why we have a UHF discount that 
has no justification. And that is because we have no 
information that we are gathering. We are just making decisions 
based on political----
    Mrs. Blackburn. So you would support the FCC being in the 
newsroom?
    Ms. Clyburn. I will support the FCC not being in the 
newsroom, because I am a First Amendment prophet. I had a 
newspaper for 14 years, and dare not anybody come into my 
newsroom and tell me what to print. That is not what I am 
saying.
    Mrs. Blackburn. All right. Let me ask you all this. In 
2009, Anita Dunn, the White House communications director said 
of Fox News: We are going to treat them the way we would treat 
an opponent. We don't need to pretend that this is the way that 
legitimate news organizations behave. This overall attitude 
culminated in the exclusion of Fox News From access in numerous 
large and small ways.
    As deputy press secretary Josh Earnest wrote in an email to 
a Treasury official, and I am quoting: We are demonstrating our 
willingness and ability to exclude Fox News from significant 
interviews.
    Did any of this raise First Amendment concerns with any of 
you?
    Yes or no. Commissioner Carr, start with you, and go right 
down the line.
    Mr. Carr. I think it underscores the need for the 
Commission to just stay focused on every action that the agency 
takes being consistent with----
    Mrs. Blackburn. OK. We are going to learn to do yes and no.
    OK. Commissioner Clyburn.
    Ms. Clyburn. I am trying to grasp what are you saying. All 
I know is I am very consistent on First Amendment principles.
    Mrs. Blackburn. OK. So exclusion from asking questions or 
being included, would that bother you?
    Ms. Clyburn. Exclusion----
    Mrs. Blackburn. Excluding a news outlet, would that bother 
you?
    Ms. Clyburn. Excluding a news outlet from--that is not how 
I conduct myself.
    Mrs. Blackburn. OK. All right.
    Chairman Pai?
    Mr. Pai. I agree with Commissioner Carr.
    Mrs. Blackburn. OK.
    Mr. O'Rielly. Yes.
    Chairman Blackburn. Yes. OK. Follows instructions well.
    All right. Chairman Rosenworcel?
    Mr. Rosenworcel. Tension between administration----
    Chairman Blackburn. Yes or no. You have got to learn to do 
it.
    Mr. Rosenworcel. Tension between administrations are as old 
as the republic.
    Mrs. Blackburn. All right.
    Mr. Rosenworcel. Nothing strikes me about what you have 
just described as being particularly new or unique.
    Mrs. Blackburn. OK. That is unfortunate.
    All right. Mr. Doyle, you are recognized for 5 minutes.
    Mr. Doyle. Thank you very much.
    Commissioner O'Rielly, in the spirit of Chairman Dingell, I 
have a number of questions that I want to ask you with--just 
requiring yes or no answers. And I would appreciate you doing 
that as rapidly as possible.
    Mr. O'Rielly. Yes.
    Mr. Doyle. Thank you. You got it. You used to work on this 
committee.
    Mr. O'Rielly. Yes.
    Mr. Doyle. And you helped draft legislation that prevented 
one entity from owning broadcast stations that reach more than 
39 percent of the national population, correct?
    It is a yes or no.
    Mr. O'Rielly. Thank you.
    In response to a question for the record from me, did you 
state that you believe only Congress can change the cap via the 
passage of legislation?
    Mr. O'Rielly. Yes.
    Mr. Doyle. Thank you. At that time that you worked on this 
legislation, did you understand that a UHF station signal, the 
ones above channel 13, could not travel as far as VHF signals?
    Mr. O'Rielly. Yes.
    Mr. Doyle. Were you aware at that time that the FCC did not 
count the entire reach of UHF stations against the 39 percent 
national ownership cap?
    Mr. O'Rielly. Yes.
    Mr. Doyle. And in a twist of fate, since the DTV in 2009, 
digital UHF stations can now reach a larger audience than VHF 
stations, right?
    Mr. O'Rielly. Yes.
    Mr. Doyle. The UHF discount now allows a single entity to 
own stations that reach more than 39 percent of the national 
population, correct?
    Mr. O'Rielly. Yes.
    Mr. Doyle. Even though there is no technical reason for 
this discount anymore, right?
    Mr. O'Rielly. Yes.
    Mr. Doyle. So the UHF discount just allows companies to 
reach close to 80 percent of the national audience, right?
    Mr. O'Rielly. Yes.
    Mr. Doyle. Do you believe the Congress intended to create a 
loophole in the law?
    Mr. O'Rielly. That is a no.
    Mr. Doyle. Thank you.
    Did you state in a response to me that, even though you 
think only Congress can change the national cap, this entire 
issue may need to be litigated through the judicial process to 
determine which position is accurate?
    Mr. O'Rielly. Yes.
    Mr. Doyle. Did you also say that you suspect your position 
will ultimately prevail at the end of the day?
    Mr. O'Rielly. Yes, always.
    Mr. Doyle. Does that mean you believe the court will find 
that only Congress can adjust the 39 percent national cap?
    Mr. O'Rielly. Both parts, yes, national cap and the UHF 
discount.
    Mr. Doyle. But did you also state that you will support 
whatever action is necessary to see that the issue gets its day 
in court?
    Mr. O'Rielly. Yes.
    Mr. Doyle. So are you saying that you are willing to vote 
to raise the cap, even though you think Congress prohibited the 
FCC from taking that action?
    Mr. O'Rielly. I am saying that I need to see what the item 
is. I don't want to----
    Mr. Doyle. It is a yes or no question.
    Mr. O'Rielly. Well, yes.
    Mr. Doyle. Thank you.
    If the 39 percent cap is statutory, as you and I both 
believe, will you oppose any attempts by companies to 
contravene congressional intent?
    Mr. O'Rielly. I believe that they comply with the law.
    Mr. Doyle. Specifically, if the Sinclair-Tribune merger 
resulted in a combined entity reaching more than 39 percent of 
the national audience, that would contravene congressional 
intent, correct?
    Mr. O'Rielly. No.
    Mr. Doyle. Why not?
    OK. Thank you. I will let you get by on that one.
    So if that is the case, though, if it did contravene the 39 
percent, would you oppose the merger?
    Mr. O'Rielly. I don't talk about any pending merger before 
the Commission.
    Mr. Doyle. If the Sinclair merger goes through and the 
courts determine that you were right, that Congress prohibited 
companies from exceeding the cap, should the FCC undo the 
merger?
    Mr. O'Rielly. I don't talk about any pending mergers before 
the Commission.
    Mr. Doyle. Well, let me just say, I think this is a 
dangerous path, because your response to my questions for the 
record and some of your answers here today suggest that you may 
take steps to evade the law by approving a merger, even though 
you and the majority of the Commission agree that it would 
violate congressional intent. And I hope that you will 
reconsider that.
    Let me ask Commissioner Rosenworcel if she has anything she 
wants to add to the line of questioning that I have had 
regarding that merger.
    Ms. Rosenworcel. Thank you. I believe that 39 percent is 
the figure that Congress chose to put in the law and that this 
Commission needs to abide by it.
    Mr. Doyle. Thank you.
    Madam Chair, I want to ask unanimous consent to enter into 
the record five documents. One is the chairman's 2014 Wall 
Street Journal op-ed, his response; a letter also that he sent 
regarding a letter that a number of members sent regarding the 
President's threats against the media; a letter from Consumers 
Union; and the statement for the record that Commissioner 
O'Rielly had sent back to me.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you very much. I see my time is just about 
expired, so I will yield back.
    Mrs. Blackburn. Yes, it has.
    And, now, Chairman Walden, you are recognized.
    Mr. Walden. Well, thank you, Madam Chair.
    Yes or no, Commissioner O'Rielly, do you wish 
communications issues were as simple as yes or no?
    Mr. O'Rielly. Yes.
    Mr. Walden. Thank you.
    Now, moving on. Commissioner Rosenworcel, so I am glad you 
raised the ARRA issue. I was on the committee at the time when 
the stimulus bill came through. And I fought like the dickens 
to get the maps done before the money went out the door, and I 
failed in that effort. And so the money went out the door, then 
they drew the maps.
    What I am trying to figure out is why are the maps 3 years 
old? Does the FCC not have a responsibility to keep those up to 
date?
    Ms. Rosenworcel. Thank you for the question. I agree with 
you. I think we should be keeping them up to date. I think the 
fact that we spend billions of dollars on Universal Service 
Fund every single year without having a full sense of where 
service is and is not is a problem.
    Mr. Walden. I fully agree.
    Ms. Rosenworcel. And it is my understanding that the funds 
that were used to support that map at the Department of 
Commerce ceased to be available when the American Recovery and 
Reinvestment Act came to an end, and I think that the FCC has 
been collecting data through its own 477 process. But it is 
not----
    Mr. Walden. And how valuable is that 477?
    Ms. Rosenworcel [continuing]. Compatible with the data from 
the Department of Commerce.
    Wherever you are sitting on this issue, it just seems to me 
that with better data we are going to make better decisions----
    Mr. Walden. Thank you.
    Ms. Rosenworcel. And that is the point I----
    Mr. Walden. I actually agree with that and hope you all can 
figure out what the best reporting improvement mechanism is to 
get to those data points, because we shouldn't be overbuilding 
or wasting the ratepayers' money.
    Mr. Chairman, did you want to comment on that?
    Mr. Pai. I would be happy to. That is precisely why, 
several months ago, I asked the House and Senate Appropriations 
Committees for a reprogramming of funds to enable us to 
discharge that important function. And I am glad to report that 
each committee agreed with that recommendation and that task is 
now underway and certainly welcome Commissioner Rosenworcel's 
support for it.
    Mr. Walden. Ms. Rosenworcel.
    Ms. Rosenworcel. I just want to point out that that sounds 
terrific, but it is my understanding that that is only for 
wired broadband. And I think an adequate map at this point has 
to include both wired and wireless.
    Mr. Pai. Certainly, if the committees give us additional 
reprogramming funds, we would love to pursue it. We cannot act 
in the absence of congressional authorization from our 
appropriators, as this committee well knows.
    Mr. Walden. Very good. Maybe we can get everybody on the 
same page on this one. We stand ready to work with you on it.
    Chairman Pai, we have spent a lot of time together over the 
years before this committee, and one of my concerns has been 
that the FCC did not always operate in an open and transparent 
way. I argued for making some of the proposed orders public and 
have it actually circulated so Commissioners could read it, the 
public could read it.
    Have you done anything to improve that process down there?
    Mr. Pai. I believe I have, Chairman Walden. I announced a 
pilot project in the second week I was in office that, for some 
of the upcoming meetings, we would be publishing at least 3 
weeks in advance the actual text on the internet of these 
orders----
    Mr. Walden. Had that been done before?
    Mr. Pai. It had never been done, and I had been told not 
only was it potentially unlawful for it to be done, but it was 
also unwise for it to be done. And I think the success of the 
pilot program has disproved each one of those claims of fear.
    And, just yesterday, I announced that--or 2 days ago, 
rather, that this would be a permanent project, that we would 
be doing this on a permanent basis for every meeting that the 
FCC will hold into the future so long as I have the privilege 
of leading the agency.
    Mr. Walden. There was an issue about delegated authority 
and Commissioners wanting to be able to take it off delegated 
authority. Have you made any changes on that one?
    Mr. Pai. Absolutely. One of the things that Commissioner 
O'Rielly and I noticed in the minority is that if one of us or 
both of us requested that an item that was reportedly going to 
be done on delegated authority--if we requested that item be 
considered by the full commission, my predecessor would 
typically ignore that. And so I said, if there are two 
Commissioners who want to handle something on the full 
commission level, we will do that. And that is what we have 
done.
    Mr. Walden. Good.
    Main studio rule----
    Mr. Pai. Yes, sir.
    Mr. Walden. I think I am the only one on the panel that 
actually had to comply with that, as an FCC licensee for more 
than two decades.
    Obviously, you believed it outlived its purpose. I believed 
it outlived its purpose. It made no sense. We very seldom, if 
ever, had anybody come into the main studio for the purpose of 
looking at the public file. That is now online, I believe, 
right?
    Mr. Pai. Absolutely right.
    Mr. Walden. And so I am trying to get to this issue of why 
some people think it was like the holy grail of local 
communication. Because I don't see it that way; I didn't see it 
that way. We acquired three other stations in another market. 
It would have been nice to be able to consolidate in overhead 
and put the money, like we did, into more news gathering and 
into the proramming and all of that. People still knew where we 
lived, and we knew where we lived. And so I commend you for 
getting rid of that rule.
    I think there are a whole bunch of other antiquated rules 
that are legacy, that make no sense in today's internet 
communication world, that other providers and competitors in 
the market have no obligation to comply with. I don't see 
Twitter with their local community rule in any community they 
serve or any of these others. I realize they are not licensed. 
But, obviously, there is a lot of debate going on now about how 
all these communication mechanisms work in today's environment.
    My time is gone. Thank you, Madam Chair.
    Thank you, Commissioners, for all the good work you do. We 
look forward to having you back up here on a regular basis.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized for 5 minutes.
    Mr. McNerney. I want to thank the chair for the hearing.
    And I thank you, Commissioners, for your work. It is not an 
easy job. And it is interesting to see the different viewpoints 
that you all have.
    Mr. Chairman, I recently had a chance to visit The Huddle, 
which is a coworker space in my district where startups go 
together to bring innovative ideas and working hard to get 
their businesses off the ground. But they are very worried 
about the impact that doing away with net-neutrality 
protections will do to their businesses.
    If net-neutrality protections are weakened, as you propose, 
can you commit to me that small businesses and jobs will not be 
hurt in my district? Please answer with a ``yes'' or ``no.''
    Mr. Pai. Well, Congressman, I don't know that particular 
company, but, obviously, we support a free and open internet 
that allows small businesses like that to thrive.
    Mr. McNerney. Commissioner Clyburn, do you think that that 
will hurt small businesses?
    Ms. Clyburn. I think, if we shift gears, that they would 
not have the certainty that they need.
    And I think that what doesn't get enough attention is the 
impact on universal service. And we can talk about that later, 
but the Chairman is not speaking clearly about what the impact 
on universal service would be if we shift from Title II.
    Mr. McNerney. Well, thank you.
    Commissioner Rosenworcel, there has been a series of 
reports on the Sinclair-Tribune merger. I am very concerned 
about the impact that this merger would have.
    The FCC has a critical role to play in the merger approval 
process. From your perspective, how do you think the Commission 
has handled the review of this merger and the related 
proceedings?
    Ms. Rosenworcel. Thank you for the question.
    Frankly, I am concerned. I think any broadcaster reaching 
more than 70 percent of United States households would be 
unprecedented.
    I am also concerned that, if you look at the series of 
media policy decisions that has been made by this Commission, 
they all seem to serve Sinclair Broadcasting's business plans, 
from reinstating the UHF discount, to changing the 39-percent 
rule that was enacted by Congress, to possibly foisting on all 
of our households a new broadcast standard for which they own 
many, many patents.
    I think it has reached a point where all of our media 
policy decisions seem to be custom-built for this one company. 
And I think it is something that merits investigation.
    Mr. McNerney. Thank you. That is a pretty strong statement.
    Mr. Pai, should the FCC be doing more to ensure local 
officials have local resources and know how to use the WEA, the 
Wireless Emergency Alerts?
    Mr. Pai. Absolutely, Congressman. That is part of the 
reason why I supported the proposal last year to work 
cooperatively with local officials and stakeholders to see if 
we can strengthen that system.
    Mr. McNerney. So we can count on your support in terms of 
producing resources and education?
    Mr. Pai. Absolutely. Our public safety bureau and I 
personally are committed to making sure that that system is as 
robust as it can be.
    Mr. McNerney. Thank you.
    Mr. Pai, last September, the FCC adopted a further notice 
of proposed rulemaking that addresses increasing the accuracy 
of the WEA geotargeting. The final round of comments was due on 
January 9. When does the Commission plan to move on that?
    Mr. Pai. We don't have a particular timeframe, Congressman. 
I will note two things, however: First, the reason that we have 
that geotargeting proposal is because my office last year urged 
the full Commission to include it. And that is part of the 
reason why I was pleased to support it.
    The second thing is that we are still working very 
cooperatively with local officials, with stakeholders, and 
others to figure out the right way forward. So, while I can't 
give you a specific timeframe, I do want you to know that this 
is under active consideration, and we are going to do the best 
we can to make sure that the system, as I said, is robust.
    Mr. McNerney. Well, would you commit to giving the 
committee a quarterly report on the progress of that?
    Mr. Pai. I would be more than happy to do so.
    Mr. McNerney. Thank you.
    Chairman Pai, during our last FCC oversight hearing, I 
asked you if you would commit to turning over to this committee 
any reports, requests, memoranda, and server logs related to 
the alleged May 7 DDOS attacks on the FCC's electronic systems.
    You said that you had hoped to consult with IT staff and 
attorneys to see if there were any applicable technical or 
legal prohibitions against you sharing information with this 
committee. You then committed to sharing the requested 
information with the committee to the extent that you could do 
so.
    So far, no one from your staff has followed up with my 
office regarding this matter, and we still have not received a 
single document in response to the request.
    Do you recall consulting with the IT staff about this 
issue?
    Mr. Pai. I do remember meeting about this issue after the 
hearing. If you don't mind, I will take a look at it. My 
understanding was that we had gotten in touch, perhaps not with 
your office but with the committee. But I will double-check to 
make sure, and we will get you the information that you need.
    Mr. McNerney. OK. Well, I will follow up on that, then, and 
make sure we get that information.
    Mr. Pai. OK.
    Mr. McNerney. Well, I am going to yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Lance, you are recognized for 5 minutes.
    Mr. Lance. Thank you, Chairman Blackburn.
    Good afternoon to members of the Commission.
    And, regarding the First Amendment, let me say that I think 
you, Chairman Pai, and all members of the Commission, are 
devoted to the First Amendment, as, of course, we are in 
Congress. I am proud that New Jersey was the first State to 
ratify the Bill of Rights in 1791.
    You mentioned President Kennedy, Chairman Pai, in The 
Washington Post. Before you were born and, I would imagine, 
before any member of the Commission was born and when I was a 
little boy, John Kennedy canceled his subscription to the 
Herald Tribune, the great Republican newspaper in New York, and 
my late father, who was involved in public policy in New 
Jersey, sent him a subscription to the Herald Tribune. And we 
have in our family files a very sarcastic and curt letter back 
from Pierre Salinger saying we should stay out of the 
subscription business of the White House.
    And so, from my perspective, all presidents, on occasion, 
criticize various news agencies. I don't find it necessarily 
attractive. My reading of American history is that this is done 
by various presidents. And I have great confidence in you, 
Chairman Pai, and in members of the Commission in this regard.
    Mr. Pai. Thank you, Congressman.
    Mr. Lance. To Commissioner Carr and to Commissioner 
Rosenworcel, congratulations on your confirmation.
    Commissioner Rosenworcel, you recently applauded the 
AIRWAVES Act, introduced by Senators Gardner and Hassan, for 
identifying more spectrum that can be made available for 
wireless broadband.
    How would the AIRWAVES Act arm the FCC with tools to keep 
pace with consumers' significant demand for bandwidth and for 
the race to 5G?
    Ms. Rosenworcel. Thank you for the question and the 
delightful family story.
    Mr. Lance. I hope I haven't bored you.
    Ms. Rosenworcel. The best part of the AIRWAVES Act is 
something incredibly simple: It is full of deadlines. It 
chooses certain spectrum bands, and then it tells the agency 
that it has to auction them on a very clear calendar. I think 
that calendar is useful for all aspects of the wireless 
ecosystem, and I think it is vitally important.
    Mr. Lance. Thank you very much.
    Chairman Pai, last month, I believe without warning, Google 
blocked Amazon's new Echo Show devices from showing any YouTube 
videos. As of November 2016, YouTube was by far the leading 
internet video portal in this country, with 79 percent market 
share. Netflix was ranked second, with 8 percent. The same 
study found that users age 25 to 34 years spent an average of 
178 minutes each week watching online video. So access to 
YouTube is a deal-breaker for videos devices like the Echo 
Show.
    From your perspective, Chairman Pai, should the FCC be 
involved in any way in this matter?
    Mr. Pai. Congressman, our internet regulations do not apply 
to edge providers or to conduct of the kind you are describing. 
So, as a matter of law, they simply don't, at this point.
    Mr. Lance. Thank you. And I think that this is a serious 
matter, and I don't know exactly the venue we should pursue.
    But is there any other member of the Commission who would 
like to comment on this?
    Thank you, Madam Chairman. I will yield back a minute and a 
half.
    Mrs. Blackburn. We are rolling. You might get the prize.
    Mr. Lance. I hope so.
    Please, everyone else, may I have the prize?
    Mrs. Blackburn. OK. Now we are into a competition. I have 
Goo Goos in the office. We will see who wins.
    Mr. Ruiz, you are recognized.
    Mr. Ruiz. Thank you, Chairman Blackburn. And, yes, I vote 
to give him the prize.
    This hearing is timely for a number of reasons, but, in 
particular, I would like to focus on the FCC's role in the 
ongoing recovery effort in Puerto Rico and the Virgin Islands.
    By way of background, I have training in humanitarian 
disaster relief from the Harvard Humanitarian Initiative. I am 
an emergency medicine physician. And I was on the ground in 
Haiti as the medical director for the largest internally 
displaced camp in all of Port-au-Prince after the earthquake in 
2010. So I have seen firsthand the challenges that arise in a 
humanitarian crisis and the importance of communication systems 
and coordination amongst agencies, local governments, and NGOs 
in the field.
    Two weeks ago, I flew down to Puerto Rico to see the 
conditions for myself and to do a needs assessment based on my 
training and experience. And I found two things that I would 
like for you to carry back and figure out how we can work 
together to improve. One is a lack of clarity of leadership as 
to which agency is really running the show and taking the 
leadership on the ground. And two is a lack of coordination 
amongst agencies, NGOs, the local governments, out in the 
field, not necessarily in San Juan.
    And so my first question is for Chairman Pai.
    Has the FCC been in the room during these conversations in 
leadership? What is your footprint in Puerto Rico, and what are 
your efforts in coordinating with the other agencies on the 
ground?
    Mr. Pai. Thank you for the question, Congressman, and thank 
you for your attention to this issue, including personal 
attention in the island itself.
    I have spent a lot of time over the last several weeks 
involved in Puerto Rico and the recovery efforts. I have 
regularly consulted with FEMA, with Puerto Rican officials, 
with wireless companies, with tower companies----
    Mr. Ruiz. ``Regularly'' means what? Are you invited to 
weekly, daily briefings?
    Mr. Pai. So we get daily briefings on some of the situation 
there----
    Mr. Ruiz. Do you have people on the ground full-time?
    Mr. Pai. Yes, sir.
    Mr. Ruiz. Do they go to those meetings in San Juan?
    Mr. Pai. My understanding is that they do liaise with----
    Mr. Ruiz. Just follow up with that. Do they go down into 
the periphery and the municipalities as well?
    Mr. Pai. The FCC staff I have spoken with have described to 
me how difficult it was, in some cases----
    Mr. Ruiz. It is.
    Mr. Pai [continuing]. To go from place to place.
    Mr. Ruiz. Very difficult.
    Mr. Pai. Because, in some cases, the roads weren't even 
cleared----
    Mr. Ruiz. Yes.
    Mr. Pai [continuing]. So it was very difficult.
    Mr. Ruiz. So that is good to hear, that you personally are 
involved in getting calls for sure.
    Mr. Pai. Absolutely.
    Mr. Ruiz. And, in this case, we have some lessons learned 
that could save lives.
    I have also made some calls with telecommunication carriers 
that have run into a myriad of barriers, including--and please 
take notes here--one is a lack of security available to keep 
their engineers and equipment safe so they can make the repairs 
necessary to restore service; two, inconsistent coordination 
with power providers that could have freed up critical 
generators for use elsewhere on the island; and, three, 
failures in the backhaul infrastructure that have prevented 
towers from coming online even when they are powered and 
repaired; and, four, logistical delays that kept temporary 
satellite trucks, which were utilized, for example, in Texas 
and Florida to provide temporary wireless service, literally 
waiting on the boat for days.
    So, while a disaster of these proportions is hopefully a 
rare occurrence, Hurricane Katrina and Sandy have shown us that 
hope is not a luxury that we can rely on.
    Two weeks ago, I submitted a proposal to have the FCC 
create a list of best practices for telecommunications 
infrastructure and preparedness in hurricane and disaster-prone 
areas. I hope we can work together on this proposal to find a 
commonsense solution that fosters improved coordination and 
more efficient response efforts in the future.
    So, Chairman Pai and to the other Commissioners, will you 
work with me on this important issue?
    I will go down the line.
    Mr. Carr. Yes.
    Ms. Clyburn. Absolutely.
    Mr. Pai. Yes.
    Mr. O'Rielly. Yes.
    Ms. Rosenworcel. Yes.
    Mr. Ruiz. Wonderful. I appreciate your willingness to work 
on this critical issue.
    Finally, Commissioner Rosenworcel. You have been outspoken 
on the need for FCC action in response to Hurricanes Harvey, 
Irma, and Maria. What more do you think the FCC can do to help 
with recovery efforts right now as well as better prepare for 
future disasters?
    Ms. Rosenworcel. Thank you for the question and your work 
on this subject.
    I think we just need to take a playbook from what we did 
with Hurricane Katrina and Hurricane Sandy. We held hearings. 
We held hearings and talked to people on the ground in 
locations that are different than Washington, D.C. We came up 
with ideas, we put them in reports, and then we changed our 
rules to make sure that we are better prepared the next time.
    While I appreciate that we have a task force, I am 
confident that all good ideas do not reside in our building on 
12th Street. And so I think we should be getting out, holding 
hearings, issuing reports, and then changing our rules to be 
better prepared in the future.
    Mr. Ruiz. Thank you.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Shimkus, you are recognized for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chairman.
    I appreciate you all being here. Opioids, NDAA conference, 
and then here, so I apologize for missing some of the opening 
statements. It has been a busy day.
    And I just caught the last end of the comments from you, 
Commissioner Rosenworcel. And Chairman Pai was out to my 
district, and I appreciate that, visiting on an issue that many 
of you know that I have been working on, 911, going back to 
when we officially made it the national cellular number, all 
the way until next generation. And the interesting thing about 
the trip was that it was multiple counties, rural counties, 
working together to move forward.
    And then we had a roundtable. And the roundtable, from my 
point, the people who talked about vesting in the program, they 
said the good and the bad. People who hadn't yet joined talked 
about why, but why they are thinking about it.
    So I know you have made--and this is to the Chairman.
    I know you have made a lot of trips to rural America. I 
would like to know what some of your takeaways are, other than 
just the next-generation 911, but other issues that have been 
raised in your travels.
    Mr. Pai. Thank you for the question, Congressman, and for 
the hospitality you and your folks showed in Harrisburg.
    The key takeaway I have from the trips I have taken, over 
4,000 road-miles in small towns across the country, is that the 
digital divide is real and that it leaves human capital on the 
shelf, particularly in rural towns that don't have internet 
access. And that is why I am deeply committed to doing 
everything that I can and hopefully the FCC doing everything it 
can to bridge that divide.
    We have seen the payoff in places like Harrisburg, where, 
as you mentioned, 15 rural counties, predominantly lower-
income, are able to band together and create a next-gen 911 
system that enables everybody to be safer than they were 
before.
    We have seen the potential in education, where rural 
communities that have high-speed internet access are able to 
give their kids distance-learning opportunities and better 
educational opportunities overall.
    We have seen the change in telemedicine. I personally 
visited a small town in southwestern Virginia that has been 
able to cut the sepsis rate by 34 percent by using advanced 
technologies like remote monitoring.
    And we have seen the power in precision agriculture. I have 
been in feed lots in Allen, Kansas, and farms in Maryland and 
other places that tell me that the notion of an analog tractor 
is long gone. Right now, technology is the key driver for 
agricultural growth.
    So, to me, it just reaffirms the mission of this agency, so 
long as, again, I have the privilege of leading it, that the 
digital divide has to be our top priority.
    Mr. Shimkus. So let me follow up on the Universal Service 
Fund issues that have been addressed. A lot of House Members 
have talked about how it is insufficient. Letters have gone 
back and forth. My colleague Congressman Cramer and, I know, 
Congressman Peterson from Minnesota has also taken an interest 
in this.
    What do you have in the forefront of your plans to address 
the funding issue on the Universal Service Fund?
    Mr. Pai. It is a difficult question, Congressman. 
Obviously, some of the bigger-picture initiatives that we have 
been able to get across the finish line, like the Mobility Fund 
Phase II and CAF Phase II, have been more successful in terms 
of getting off the ground.
    In terms of the budget issue for the rate of return for 
carriers you are talking about, unfortunately, we are in a 
pickle. Last year, the Commission made a decision--over my 
dissent, I would add--that I forecasted at the time would leave 
us with a shortfall. And here we are, and the shortfall is 
here.
    So one of the things that I have suggested to my staff is 
that we should think about getting a notice of proposed 
rulemaking out by the end of the year, to think about some of 
these budget issues, to be able to tee up before the end of the 
next budget cycle, which I understand ends at the end of June 
2018, to be able to address this issue in a timely way so that 
rate-of-return carriers and, more importantly, rural consumers 
have the certainty they need in order to participate in the 
digital age.
    Mr. Shimkus. And with my 54 seconds left, does anybody else 
want to--I don't want to leave out the other Commissioners.
    Commissioner Clyburn?
    Ms. Clyburn. What you are not hearing is a call for 
contribution reform. And that is the elephant in the room--no 
party pun intended----
    Mr. Shimkus. No, that is fine.
    Ms. Clyburn [continuing]. That nobody is talking about. And 
if we don't have a rational conversation about that, we are 
going to stay in a pickle.
    Mr. Shimkus. Yes, I appreciate that.
    Commissioner O'Rielly?
    Mr. O'Rielly. Two parts. One is, I do believe there is an 
opportunity to use some of our reserves for rate of return to 
balance out both the legacy and the model side to provide--we 
are not going to provide all the money they are requesting, but 
I think there is some opportunity to increase the budget. They 
have nothing to do with the reforms that we adopted last year, 
which are mostly guardrails to prevent bad behavior.
    And then, two, in terms of contribution reforms, since I 
happen to be the chair of the Joint Board on Universal Service, 
we are trying to move forward on that, but there is a great 
difference of opinion on some of those things, so we have had 
to sideline that for the time being.
    Mr. Shimkus. Well, my time has expired. I think there is 
still a great difference of opinion among a lot of Members of 
Congress too. So I appreciate the challenges, and I appreciate 
you being here.
    I yield back.
    Mrs. Blackburn. Mr. Loebsack, 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair.
    And I do agree with my friend Mr. Shimkus that we have to 
deal with the funding issue. The question is going to be how 
are we going to do it.
    First, Commissioner Rosenworcel, great to see you back. 
Appreciate that. I haven't seen you since you were actually in 
Newton and Baxter, Iowa----
    Ms. Rosenworcel. Yes.
    Mr. Loebsack [continuing]. Way back in 2016. And people 
there were very happy to hear you talk about the homework gap 
issue and, just generally speaking, these rural broadband 
issues.
    I saw that at a recent field hearing you did highlight the 
need for better data collection. And now you have this 
crowdsourcing proposal. After you mentioned that, I quickly 
went to your Twitter account and checked it out to see what was 
going on there, because I do want you to talk about that a 
little bit more.
    But, before I do that, I am grateful that the subcommittee 
took up my Rural Wireless Access Act and we did move it 
forward. Thank you, Madam Chair. We have to get that out of the 
full committee.
    It is great to talk about making sure that we have better 
data. I remember, Chairman Pai, when we talked last, you had 
mentioned going through northwest Iowa, going from southwest 
Minnesota to northwest Iowa--or maybe it was the other way--and 
you had a lot of problems, obviously, with cell service. As 
someone who has 24 counties in Iowa, I am fully aware of this 
problem, as are all my constituents.
    But my bill, hopefully we are going to get it out of full 
committee, get it on the floor, and get this thing enacted at 
some point, and hopefully sooner rather than later, to make 
sure that you folks have statutory authority, as much as 
anything, to do the things that you are talking about today.
    But can you elaborate a little bit on your crowdsource 
proposal?
    Ms. Rosenworcel. Sure.
    Listen, for a long time, the way that the FCC collected 
data about broadband is we found, if there was one subscriber 
in a census block, we presumed that it was available throughout 
the block.
    Mr. Loebsack. Right.
    Ms. Rosenworcel. I think we all know that that is not a 
fair assumption anymore, and we are leaving too many households 
behind.
    We also have been collecting data and shapefiles from 
wireless carriers, and sometimes they get it right, but 
sometimes, as you probably know, you can drive through places 
and find that you have no bars and no ability to make a call.
    We are going to have to work hard to have more precision in 
our maps to target our policy efforts, and I think we should be 
asking the public for help. I think they know better than 
anyone else where they live, where they get service and they 
don't. And I feel like it is time to start incorporating public 
comment into our maps if we want to make them effective and 
accurate.
    Mr. Loebsack. I appreciate that. It is democratizing the 
process, and that is----
    Ms. Rosenworcel. Exactly.
    Mr. Loebsack [continuing]. Very important. I think we can 
all agree with that. Thank you.
    For all the witnesses, at the recent repack hearing that we 
held, American Tower's witness said in his testimony that there 
was a shortage of qualified tower crews. There are some of us 
who have some ideas about how we can address that issue.
    Do you agree with that assessment, and do we have enough 
crews to get the job done in 39 months? If not, what will 
happen to broadcasters who can't complete the transition in 
that time?
    To any of you folks who would like to address that issue.
    Yes, go ahead, Commissioner.
    Mr. Pai. Well, I will simply say that we try to structure 
the phases such that we would be able to accommodate variations 
in terms of weather and availability of crews and the like.
    If we get information that there is a bottleneck like that 
that might stand in the way of the 39-month deadline being able 
to be met, we will certainly work with Congress and with 
stakeholders to take the appropriate action.
    Mr. Loebsack. Anyone else want to comment?
    Mr. O'Rielly?
    Mr. O'Rielly. Well, I have raised this issue a number of 
times with different industry groups to see where we were, and 
I was concerned that there was a shortage of crews. And we have 
seen an increase of the number of crews, some of those 
sponsored by the wireless companies who would like to take 
advantage of those licenses on an early basis.
    So it has been relatively positive, but I think the 
Chairman is exactly right. We have to get through some of the 
phases and see where we are.
    Mr. Loebsack. Any of the other Commissioners want to speak 
on that issue? No?
    It is a workforce development issue too. We have to get the 
right number--we have to get the people trained so they can do 
that. And I have talked to my friend Mr. Shimkus about that 
too. We have to move forward on that.
    While we are on the subject of the Universal Service Fund--
and, Commissioner Pai, you know that I have written to you 
about moving the resources to the U.S. Treasury and some of the 
concerns I have about that, making sure that the funds actually 
are used as they are supposed to be used.
    Would you like to address that issue? Because I think that 
is a legitimate issue. If we move the funding, you know, to the 
U.S. Treasury instead of from the bank, then I think that is 
going to be a really difficult issue that we have to resolve.
    Go ahead, if you want.
    Mr. Pai. Thank you, Congressman. And I appreciate your 
concern.
    The issue, as I understand it, from a financial 
perspective, is twofold. Number one, from a legal perspective, 
it is safer for Federal funds of this kind to be stored with 
the United States Government as opposed to a private account.
    Secondly, given some of the issues that arise when these 
funds are kept in a private bank account--for example, if there 
is somebody who owes money to the IRS and that person is also 
at the same time getting money from the FCC, the Federal 
Government is limited in its ability to have an offset, so to 
speak. Keeping the money in that Treasury account allows 
essentially the Federal taxpayer to be whole, that we are not 
sending money out the door in a way that, at the end of the 
day, Congress might not want.
    And so we have been exploring with Treasury and with others 
the way to move forward on this. But, obviously, we are happy 
to take any input on ways to accommodate multiple interests.
    Mr. Loebsack. Commissioner Rosenworcel, you look like you 
wanted to say something.
    Ms. Rosenworcel. I appreciate what my colleague just said. 
I think we have gotten conflicting advice over the years on 
this from OMB and GAO.
    But I just want to make this point: We get about $50 
million in interest income every year from the accounts as they 
are held today. $55 million can go far for rural broadband----
    Mr. Loebsack. That is right. Exactly.
    Ms. Rosenworcel [continuing]. For connecting schools and 
students. We are choosing to forgo those dollars. I don't think 
that makes sense.
    Mr. Loebsack. Right. Thank you.
    Mr. Pai. If I may, Congressman, if, God forbid, something 
were to happen to those funds when they were in a private bank 
account and all the billions of dollars of Universal Service 
Funds somehow went away, we would be accountable to Congress. 
And you would be asking me, as the leader of this agency, why 
did you jeopardize taxpayer funds by keeping them in a private 
bank account when thousands, if not millions, of Americans are 
depending on those funds? That is a tough tradeoff I have to 
make.
    Mr. Loebsack. I think it is a----
    Ms. Clyburn. That is why we need to put this out for 
comment.
    Mr. Loebsack. Thank you so much. It is a difficult issue. 
We have to deal with it.
    Thank you, Madam Chair.
    Mrs. Blackburn. You are welcome.
    And, Mr. Latta, 5 minutes.
    Mr. Latta. Well, thank you very much, Madam Chairwoman, for 
today's hearing.
    And thanks very much to the Commissioners for being with us 
today. As always, it is great to see you all.
    And just following up on my friend from Illinois, I really 
appreciate, Mr. Chairman and Commissioner O'Rielly, for you 
coming out to my district, because I think you take an 
interest. And, in this one case, when the Chairman was out with 
the very small rural telecoms that you met with. And it wasn't 
really a roundtable; we were actually sitting around a square 
table. But there were quite a few people there that day that 
you addressed, and they appreciated it. And, Commissioner 
O'Rielly, for coming out and talking to our smaller 
broadcasters in the area, I appreciated that. So it is good 
that you are listening to the folks back home.
    Chairman Pai, if I could start my questions with you. Like 
you, I believe modernizing regulations is critical to spur 
innovation. For instance, I would like to see the FCC 
streamline procedures for small entities to seek regulatory 
relief. The current waiver regime has a one-size-fits-all 
construction. It is disproportionately burdensome on small 
entities and, when needed, diverts the resources from 
infrastructure investment to regulatory compliance.
    Do you believe there is a need for a more efficient and 
expedited process that allows small entities to seek relief 
from these unnecessary regulations?
    Mr. Pai. Congressman, I appreciate the question. And I do 
think, consistent with my views, that we should try to minimize 
the regulatory burdens on smaller providers, that that is an 
approach that has merit.
    Mr. Latta. Thank you.
    Commissioner O'Rielly, what are your thoughts?
    Mr. O'Rielly. I agree. I think it has incredible merit.
    Mr. Latta. Thank you.
    Commissioner O'Rielly, in your statement on the 
Commission's adoption of the mid-band spectrum, NOI, you noted 
that the 6 gigahertz band is adjacent to the unlicensed 5 
gigahertz band. Would you elaborate on the potential benefits 
if the 6 gigahertz band is made available on an unlicensed 
basis?
    Mr. O'Rielly. So we have to deal with incumbency issues 
within 6 GHz, but I think that there will be tremendous benefit 
by combining it with 5 GHz. Wider channels provide opportunity 
for greater speeds, latency reductions, and consumer experience 
will go through the roof.
    We have a shortage of WiFi spectrum or unlicensed spectrum 
going forward, and we need to address that. There are 
estimates, by 2025, we will need somewhere between 500 MHz and 
1 GHz of additional unlicensed spectrum. Six GHz makes a great 
platform for that solution.
    Mr. Latta. So when you are talking about especially how 
badly congested that 2.4 to 5 GHz bands--are already available 
to the unlicensed community. So the congestion is how bad, 
would you say?
    Mr. O'Rielly. So I don't have an exact measurement, but 
when I talk to folks in the industry, they barely will use 2.4. 
Five gigahertz is obviously popular, but that is becoming 
extremely more popular, and so we are running out.
    That is why I have spent a great deal of time on 5.9 and my 
colleague and I have worked really hard on 5.9. But then 6 
gigahertz, being right next door, is a great platform.
    Mr. Latta. Thank you.
    Voice-activated virtual assistants, like Siri, Alexa, and 
Google Assistant, are becoming an increasingly popular consumer 
gateway to the internet. Someday soon, they might even become 
the consumer-preferred interface with the internet, leaving the 
age of the desktop Google search behind.
    You get Yelp results in Siri, OpenTable in Google, TuneIn 
radio from Alexa. These interactions are occurring through 
private partnerships among these companies to have their apps 
interact. However, it creates a situation where, by definition, 
the consumers' access to other internet content is limited or 
completely blocked. It is the question of who answers Siri's 
question when you ask Siri something.
    Chairman Pai, can the FCC do anything about this?
    Mr. Pai. Congressman, under our current internet 
regulations, we cannot. Those do not apply to edge providers.
    Mr. Latta. And, Commissioners Clyburn and Rosenworcel, do 
you think this is a concern for the open internet?
    Ms. Clyburn. Again, our jurisdiction is very limited. I 
think there is an impact, an influence, but, in terms of our 
ability, it is very limited to negligible.
    Mr. Latta. Commissioner Rosenworcel?
    Ms. Rosenworcel. I would agree with both my colleagues that 
our jurisdiction does not extend to that.
    Mr. Latta. Thank you very much.
    And, Madam Chair, I yield back the balance of my time.
    Mrs. Blackburn. The gentleman yields back, but he is not in 
the running for a prize.
    OK. Ms. Eshoo, you are recognized.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    And welcome to you, Mr. Chairman, and all of the 
Commissioners.
    Commissioner Carr, congratulations to you.
    Commissioner Clyburn, it is always an honor to have you 
here at the committee, get to know you.
    Commissioner O'Rielly, terrific to keep the Irishmen 
together here. You're a set of bookends.
    And to Commissioner Rosenworcel, it is really terrific to 
have you back.
    And I think that it all represents a win for the American 
people, hopefully.
    Mr. Chairman, I have been debating something inside of 
myself, so I am just going to make a statement. I don't want to 
go on and on about it, but I need to say something. To bring 
together President Kennedy with Donald Trump I don't think is 
palatable. And I am just going to leave it there.
    You know, Mr. Chairman, that I have raised deep concerns 
about RT. Our intelligence community has determined, with high 
confidence--that is the highest level of agreement between all 
of the agencies--that they interfered in our democracy. The 
intelligence community described them as the Kremlin's 
``principal international propaganda outlet.''
    I wrote to you May 8, urging you to consider applying 
broadcast transparency requirements to state-sponsored media 
outlets like RT so the American people would know whether 
foreign governments are behind the content they are reviewing. 
I found your response to be ambiguous, and, most frankly, I 
don't think you answered my questions. And it is curious that I 
get a response to my letters at about 6:30 in the evening the 
night before the day we are going to have a hearing with you.
    I think that this is a very serious issue. The intelligence 
community and all of the Members of the House participated in 
that briefing. It was a classified briefing, but there was also 
an unclassified report that was put out, and that unclassified 
report was replete with RT.
    Now, I don't know what I need to do to either impress upon 
you that this is a serious issue and that you take it 
seriously--so I want to ask you, will you commit to us that you 
will apply or consider applying broadcast transparency 
requirements to state-sponsored media outlets like RT? And if 
not, why not?
    Mr. Pai. Congresswoman, thank you for the question.
    Ms. Eshoo. Well, you are welcome.
    Mr. Pai. As I understand the law, there is no 
jurisdictional hook at this point, no transfer of a license, 
for example, that allows the FCC to assert jurisdiction. If----
    Ms. Eshoo. But what about those that have a license and 
carry them? Doesn't the FCC have any say-so in that? Or is 
this--as the intelligence community said, that they are a 
principal international propaganda outlet. So are they just 
going to operate in the United States no matter what?
    Mr. Pai. Congresswoman, again, under the Communications Act 
and the Constitution, the First Amendment, we do not have, 
currently, a jurisdictional hook for doing an investigation of 
that kind.
    If you are privy to, obviously, classified or unclassified 
information that suggests that there might be another agency 
that has obviously a direct interest in the issue, we are 
obviously happy to work with them. But, at the current time, as 
I have been advised, neither under the First Amendment nor 
under the Communications Act do we have the ability to----
    Ms. Eshoo. Well, the First Amendment applies to free speech 
in our country. It doesn't mean that the Kremlin can distribute 
propaganda in our country through our airwaves.
    I don't know if you are looking hard enough. Maybe if 
Commissioner Carr were still the general counsel, he could 
advise you better. But I am not going to give this up.
    I want to move to something else, and that is this issue on 
media consolidation. Three years ago, Mr. Chairman, the 
Commission voted unanimously to prohibit two stations in a 
market from jointly negotiating retransmission consent. And you 
were part of that unanimous vote.
    Now, by eliminating the duopoly rule, which reports 
indicate you are preparing to do next month, you would permit 
two of the top four stations in a market to merge.
    So how do you explain this?
    Mr. Pai. Well, those reports are inaccurate. As I outlined 
in my opening statement and as you will see tomorrow when we 
publish in unprecedented fashion the actual text of this 
document, we were doing a case-by-case review in particular 
markets----
    Ms. Eshoo. So this will apply to Sinclair?
    Mr. Pai. It applies to any broadcaster that seeks to enter 
into an agreement that otherwise would be in violation of the 
top-four prohibition. So some----
    Ms. Eshoo. With 73-percent dominance of a market, how does 
that fit? Where does that fit?
    Mr. Pai. So some had argued we should just get rid of the 
top-four prohibition----
    Mrs. Blackburn. The gentlelady's time has expired.
    Ms. Eshoo. Well, he can answer the question.
    Mrs. Blackburn. Yes.
    Mr. Pai. Some had argued that we simply get rid of the top-
four prohibition. My recommendation to our staff was to draft 
it so that there would be a case-by-case review. We would not 
get rid of it. We would review, if there were particular facts 
that a particular broadcaster would bring to us and that 
presents a compelling case that that combination would be in 
the public interest, then we will take a look. But, otherwise, 
the prohibition applies.
    Mrs. Blackburn. Time has expired.
    Ms. Eshoo. I wish I had more time.
    Mrs. Blackburn. Mr. Guthrie, 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairman.
    Thank you, everyone, for being here.
    And, Commissioner Carr, welcome.
    And, Commissioner Rosenworcel, welcome back.
    We look forward to working with you guys over the course of 
this term.
    First, Chairman Pai and Commissioner O'Rielly, thanks for 
letting us know about the auctions and the inability for the 
financing fix that you need. I know that the chairman in the 
overall authorization bill is taking care of this. But also, 
yesterday, Congresswoman Matsui and I did drop a bill to 
specifically fix the issues so we can move forward, hopefully, 
on the auctions moving forward.
    I had a question. In 2013--and I was one of the households 
affected by this--there was a carriage dispute between CBS and 
Time Warner Cable, and CBS blocked Time Warner Cable internet 
customers from viewing its shows online through its cbs.com 
website. So I couldn't get any of CBS or Showtime or any of 
that on TV. If you went to the website, because Time Warner 
Cable was our cable provider and internet service provider, you 
couldn't go to cbs.com--it was blocked--or Showtime to watch 
any of those shows that were coming out. And that is when some 
new ones were coming out that August, so we were trying to find 
that.
    But some Members of Congress did bring this up, and I think 
Chairwoman Clyburn was acting Chairwoman at the time and said 
that she didn't believe the agency had the jurisdiction to 
intervene in this situation.
    And, Chairman Pai, do you think if it happened now, do you 
think the FCC would have the opportunity to intervene in a 
similar case?
    Mr. Pai. Congressman, I think the legal authorities have 
not changed. To the extent that the FCC gets a complaint that a 
party is acting in bad faith in the context of a retransmission 
dispute, then we would be able to adjudicate it. But absent 
such a complaint or additional authority from Congress, we 
couldn't take further action.
    Mr. Guthrie. But, currently, the Title II open internet is 
still in effect. How would that affect it?
    Mr. Pai. Oh, yes. To be clear, I should have added, as 
well, then, our internet regulations would not apply to that 
kind of content, to the extent you are talking about the 
blocking of online distribution of----
    Mr. Guthrie. Because it only applies to the service 
provider, not to the content provider?
    Mr. Pai. That is correct, sir.
    Mr. Guthrie. So I brought your name up there, Commissioner 
Clyburn, to comment on that. So, being an advocate for the 
Title II--and I think Commissioner Rosenworcel, when she was on 
the Commission, as well--should it be expanded, where it 
doesn't just affect internet service providers but you should 
also have jurisdiction on the content side as well? If it is 
good for one, should it be good for the other is my question.
    Ms. Clyburn. Well, I am not in a position to comment at 
this time. I just know what is in front of me and what the 
rules of the roads are at this time.
    Mr. Guthrie. OK.
    Same answer, I guess?
    Ms. Rosenworcel. No. To be clear, that behavior was 
problematic. From a consumer perspective, that stinks, right?
    Mr. Guthrie. Yes. I was a consumer.
    Ms. Rosenworcel. But I would point out that what we are 
talking about when we talk about telecommunications service and 
telecommunications under Title II is about the provision of 
service by a provider of broadband, and the jurisdiction does 
not extend to the content providers, as you described.
    Mr. Guthrie. Yes, that was my point. Yes. Thanks a lot.
    So I have some questions on spectrum. I am cochair with 
Congresswoman Matsui on the Spectrum Caucus. So Congresswoman 
Matsui and I sent a letter last summer--this is to Commissioner 
Pai, Chairman Pai--last summer regarding a pending license 
modification petition for the L band satellite-terrestrial 
network.
    What is your ideal timeline for getting information from 
the other agencies you are working with? Do you think the end 
of the year is reasonable, or will you need more time?
    Mr. Pai. Congressman, we don't have a specific timeframe in 
mind at this point. What I can say is that it is a matter that 
is under active consideration and that we are collaborating 
with other agencies and private stakeholders to see if we can 
reach a resolution.
    Mr. Guthrie. OK. Thanks.
    And for all the Commission, given the efforts of the 
Spectrum Caucus, I strongly support a further deep dive by the 
committee on wireless issues. And so, just getting your 
opinion, going down the committee, for auctions, could you each 
give me what you think is the top spectrum issue that we should 
be focusing on this upcoming calendar year for moving forward 
on auctions? What do you think is the top issue for the 
committee?
    All of you who would like to answer that. Commissioner Carr 
first.
    Mr. Carr. Sure. Thanks.
    Obviously, we have the hurdle right now in terms of our 
authority to conduct the auctions in terms of the money. And so 
the top focus that I have over the next year is going to be 
infrastructure deployment on the wireless side. I think we have 
a lot of progress that we can make there to help maintain our 
leadership.
    Mr. Guthrie. OK.
    Ms. Clyburn. And for me, it is to ensure multiple 
providers, no matter what size, and if they have the ability to 
participate. So it would be contours, the size of the bidding 
areas.
    Mr. Guthrie. Thank you. That is a good answer. Thank you.
    Mr. Pai. In the tried and true tradition of pandering to my 
questioner, I think the Guthrie-Matsui legislation is the 
number-one issue. We cannot have any spectrum auctions, 
certainly of any significance, without that fix. It is a 
bottleneck for the agency.
    Mr. Guthrie. Yes, I think you may be about next, so that 
was a good pandering.
    Commissioner O'Rielly, about 10 seconds.
    Mr. O'Rielly. I agree with my colleagues there, 
infrastructure and freeing more spectrum.
    Mr. Guthrie. Commissioner Rosenworcel?
    Ms. Rosenworcel. All right. I agree with my colleagues 
there, but I also want to quickly read you a list: 470 to 512 
megahertz, 3.5 gigahertz, 3.7 to 4.2 gigahertz, 6 gigahertz, 
28, 37, 39, 24, 32, 42, 47, 50, 70, 80, and 95 gigahertz are 
all under consideration at the Commission right now.
    What we need, instead of that blitz of spectrum, is a 
calendar that makes clear we have some bands that we are going 
to auction earlier than others so that the wireless ecosystem 
and financial markets can organize around it.
    Mr. Guthrie. Thank you. That is helpful.
    Thank you very much. I appreciate it.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you, Madam Chairman.
    My questions are to Chairman Pai. And I want to discuss 
your reaction to the President's attacks on the press. And I 
have a number of questions, so if you could keep your answers 
to yes or no, I would appreciate it.
    Mr. Chairman, are you aware that the President said, 
``Network news has become so partisan, distorted, and fake that 
licenses must be challenged and, if appropriate, revoked''?
    Mr. Pai. Is that from a tweet?
    Mr. Pallone. That is a quote. Yes. The question is, are you 
aware of that quote?
    Mr. Pai. Yes. Yes.
    Mr. Pallone. OK. Thank you.
    Mr. Chairman, are you aware that the President said, ``It 
is frankly disgusting that press is able to write whatever it 
wants to write and that The New York Times, NBC News, ABC, CBS, 
and CNN are the enemy of the American people''? That he said 
that, are you aware?
    Mr. Pai. Yes.
    Mr. Pallone. OK.
    Now, do you think that these types of statements are 
appropriate for the President of the United States to make?
    Mr. Pai. Congressman, I am going to speak to my own views 
and my own words. And my views are that I stand with the First 
Amendment. I am not going to characterize the views of anybody 
else.
    Mr. Pallone. But, Mr. Chairman, you did say on another 
other occasion, and I quote, that the American people are being 
misled about President Obama's plan to regulate the internet, 
right? You said that.
    Mr. Pai. Because that was a direct compromise of the 
agency's independence on a particular pending issue where the 
agency was already heading in a different direction.
    Mr. Pallone. But if you are not shy about speaking out 
against President Obama, let me ask you this: Would you condemn 
attacks on the press if they had come from President Obama?
    Mr. Pai. Congressman, I always focus on the facts and the 
law. That is our job, in terms of licensing----
    Mr. Pallone. Well, I just think it is a double standard 
here.
    Before coming to the FCC, you worked for then-Senator Jeff 
Sessions, correct?
    Mr. Pai. Yes, sir.
    Mr. Pallone. Are you aware that, when asked if he would, 
and I quote, jail reporters for doing their job, he said he 
cannot make a blanket commitment to that effect?
    Mr. Pai. I am not aware of that. I hadn't heard that.
    Mr. Pallone. Well, he said it.
    When you spoke at the Mercatus Center last week, did you 
say, ``Under the law, the FCC doesn't have the authority to 
revoke a license of a broadcast station based on the content of 
a particular newscast''?
    Mr. Pai. Yes, I did.
    Mr. Pallone. OK. Do you understand why reporters might be 
concerned when the Attorney General and the Chairman of the FCC 
leave open the threat of punishment and even jail time?
    Mr. Pai. Congressman, again, I wasn't familiar with General 
Sessions' statements, and I am certainly not familiar with the 
perceptions of journalists. All I will simply say is that this 
FCC stands on the side of the First Amendment, and that 
includes the ability of journalists to gather news as they see 
fit.
    Mr. Pallone. But the problem is that the people raising 
this issue, Mr. Chairman, are concerned that your silence or 
your overly lawyered responses contribute to a culture of 
intimidation that can chill free speech. And so, that is why I 
am trying to clear the air, because I am concerned about the 
impact of either silence or an overly lawyered response.
    At the Mercatus Center, you said that you would not act 
based on a particular newscast. Would you revoke a license 
based on multiple newscasts?
    Mr. Pai. No.
    Mr. Pallone. OK.
    Now, I have here a working paper--I don't know if it is in 
the record, Madam Chairwoman, so I am going to have to ask if 
we can enter it into the record.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. I have a working paper produced by the 
Mercatus Center. In this working paper, the Center suggests the 
FCC is able to threaten free speech through other mechanisms, 
like license transfers.
    Do you commit that your Commission will not threaten 
broadcasters' license transfers based on the content of the 
reporting?
    Mr. Pai. Absolutely.
    Mr. Pallone. OK. Do you commit that your Commission will 
not launch investigations into companies based on the content 
of the reporting?
    Mr. Pai. Sorry. Can you repeat that?
    Mr. Pallone. Do you commit that your Commission will not 
launch investigations into companies based on the content of 
the reporting?
    Mr. Pai. Yes.
    Mr. Pallone. OK. Do you commit that your Commission will 
not take any acts of retribution against companies based on the 
content of the reporting?
    Mr. Pai. Yes.
    Mr. Pallone. OK. Well, let me look. I appreciate working 
that out, because I think that is important.
    So, finally, Chairman Pai, when you first took office, you 
committed to me that you would be responsive to Congress even 
if a request came from Democratic Members. Now, I have heard 
complaints from my colleagues that your responses to a number 
of their letters have also been nonsubstantive and evasive. You 
have even avoided multiple times answering my questions about 
allegations involving your relationships with Sinclair 
Broadcasting, including refusing to even answer my letter.
    So let me just say, we are going to look into your 
continued evasiveness on some of these important issues, 
including Sinclair. And I just want you to know that I am not 
happy, and I am not going to tolerate the agency not responding 
to us, because I don't really feel they have, with regard to 
Sinclair and so many other issues. That is just my opinion.
    Thank you, Madam Chairman.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much.
    Before I begin my questioning, Chairman Pai, I know you 
inherited a backlog of petitions related to the 
Telecommunications Consumer Protection Act. This is an area of 
real concern to many individuals across various industries. I 
look forward to your response and future action to this topic.
    I will move on here.
    Commissioner O'Rielly, during the last oversight hearing, I 
had a discussion with Chairman Pai regarding interference 
complaints and pirate radio operations. I know that this is an 
important area. I know you care about it, very much, to resolve 
it.
    Can you share the differences between repercussions pirate 
radio operators face as compared to robo-callers?
    Mr. O'Rielly. So I will give you an example of a couple 
different items, enforcement actions that were taken by the 
Commission.
    In terms of pirate radio, we just did one for--and the NAL 
was $144,000 for pirate radio operating in Florida. In terms of 
a robo-call, it was $82 million. And in terms of a cramming 
call, cramming behavior and slamming, it was $3.9 million. So 
$3.9 million, $82 million, $144,000. The difference between the 
two--or between the three is amazing.
    Mr. Bilirakis. Wow. Wow.
    OK. Related to this topic, again, for you, Commissioner, do 
you or any of the Commissioners here on the panel know of any 
instances where pirate radio operators interfere with public 
safety or military use frequencies?
    We will start off with you, Commissioner O'Rielly.
    Mr. O'Rielly. So, technically, it wouldn't be pirate radio 
because that is someone operating within the AM or FM band, but 
they have violated the sanctity of public safety. Just 
recently, we had an enforcement action of someone in New York 
that was violating the New York public safety system, and they 
were fined, or they had an enforcement action against them. 
They are still in prison at the time, but we will see if we get 
that money.
    Mr. Bilirakis. Anyone else?
    OK. I will go on to the next question.
    Chairman Pai, I regularly advocate for seniors and, again, 
improved quality of life for seniors. I think you know that. 5G 
technology promises great benefits for our growing elderly 
population.
    What can the FCC do to advance specific telehealth 
technologies like remote patient monitoring to allow seniors to 
remain independent and age in place?
    Mr. Pai. That is a great question, Congressman, and it is a 
growing need as our population ages. I don't want to steal her 
thunder, but Commissioner Clyburn has been the leader on this 
issue in pioneering the Connect2Health Initiative, but I----
    Mr. Bilirakis. Oh, I would like to give her an opportunity 
as well.
    Mr. Pai. And I don't want to throw it in her lap, but she 
has been a leader on it.
    Ms. Clyburn. Thank you so very much, Mr. Chairman.
    Mr. Bilirakis. OK.
    Ms. Clyburn. One of the things that we are proud of, as the 
Chairman has endorsed, is the Connect2Health Task Force, as he 
mentioned. And one of the things that it is doing is looking at 
that intersection of broadband, technology, and health.
    And another thing that it is doing is very helpful. It has 
developed a broadband mapping tool that looks at what is going 
on on a county-by-county basis in the United States and looking 
at where broadband is available, where healthcare providers are 
or are not, and is informing communities as to how best to 
approach different business models, different initiatives that 
might be needed in particular areas.
    And so we are really on--as quiet as it is kept, even 
though people in the ecosystem know about it, we are front and 
center on providing a means for people to be informed so they 
can make better critical decisions.
    And this will help us also on our Healthcare Connect Fund, 
which we need to talk about enhancing that. Because, in order 
to make all of these things more ubiquitous, allowing people to 
age in place and address their needs, connectivity is key, 
affordability is key. And I am looking forward to working with 
you as we progress.
    Mr. Bilirakis. I, too.
    Everyone on board with this? Anyone want to make a comment?
    Mr. O'Rielly. Well, just to the last point maybe, that we 
have to balance all those things with all our budget overall. 
And so, we talk about expanding services; we have to figure out 
how we can pay for all of that. And that gets----
    Mr. Bilirakis. Of course.
    Mr. O'Rielly [continuing]. Back to the conversation on 
contributions.
    Mr. Bilirakis. Absolutely.
    Chairman Pai?
    Mr. Pai. I will simply add to Commission Clyburn's able 
disquisition on the issue that I think the importance of remote 
monitoring, in particular, cannot be overstated. If you are an 
older person who has difficulty coming into a hospital or you 
have just had surgery and you have just returned home, the 
worst thing that can happen for you is to get an infection or 
some sort of illness that will require you to come back.
    And so I have seen for myself in Staunton, Virginia, how a 
hospital center is using remote monitoring, as I said earlier 
in response to a question, to decrease the sepsis rate by 34 
percent, disproportionately, I think, among older individuals. 
And that is something, if you can intervene quickly, thanks to 
this technology----
    Mr. Bilirakis. Absolutely.
    Mr. Pai [continuing]. Everyone is better off. The 
healthcare system is better off because you are not spending 
money on an in-hospital regimen of treatment.
    And so it is something that I am really excited about. And 
I am glad that Commissioner Clyburn has been a pioneer on this 
issue.
    Mr. Bilirakis. Wonderful. Wonderful. Thank you very much.
    I yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Dingell, 5 minutes.
    Mrs. Dingell. Thank you, Madam Chair. I have no voice. Too 
much talking.
    It is great to have all of you here. The Dingell names have 
a long connection with the FCC, sometimes good, sometimes not. 
But I want to first start on the important topic of privacy and 
how it relates to the ATSC 3.0.
    I am really worried about privacy, and I think you all need 
to be too. This new broadcast standard allows for interactive 
TV, personalized ad placements, and for granular collection of 
data about who is watching what.
    Chairman Pai, if someone is looking to take advantage of 
this personalized content, they would like to give up 
information about themselves, would they not?
    Mr. Pai. So, sorry, would they be----
    Mrs. Dingell. So, if someone wants to use it, they are 
going to have the tell the provider what personal information 
about themselves?
    Mr. Pai. The individual consumers?
    Mrs. Dingell. Yes, the consumer.
    Mr. Pai. Well, it depends on the particular--these are 
nascent services. I don't know----
    Mrs. Dingell. Yes, the personalized content. So, as we are 
looking at this ATSC 3.0, it is going to be more personalized 
content.
    Mr. Pai. Right. Yes. I see where you are--yes.
    Mrs. Dingell. So how is the FCC considering privacy 
concerns as the Commission is looking at this new standard?
    Mr. Pai. A great question, Congresswoman.
    Right now, we are looking at just the technical standard, 
should we be able to proceed with this new next-generation TV 
standard and, if so, what should the technical parameters be. I 
would imagine that, as those privacy concerns and others like 
that come to the fore, that the agency is going to be looking 
at that too.
    Mrs. Dingell. I think it is really important.
    My staff wouldn't let me ask some of the other questions I 
wanted to ask today. But I don't think people realize that, 
when we will have televisions watching us, that there is 
reverse, as people are using all of these great new gadgets, 
how much information is being collected about them.
    And who has responsibility for letting people know that 
kind of data is being collected?
    Mr. Pai. Right. I think, in the first instance, the Federal 
Trade Commission has generally been the cop on the beat of 
privacy----
    Mrs. Dingell. They have, but so much of this is with the 
FCC. I think you all have a responsibility to really look at 
some of this.
    And do you think that this new data that is generated will 
be kept in house by the provider, or do you think it is going 
to be sold to third parties?
    Mr. Pai. Again, here, it is a nascent--the standard hasn't 
even been adopted, so we are not sure how any particular 
service----
    Mrs. Dingell. But should this be part of looking at a 
standard?
    Mr. Pai. As the services materialize, Congresswoman, we 
will certainly be monitoring all those kinds of concerns.
    Mrs. Dingell. OK.
    The last time you were here, in July, you agreed to follow 
up with this committee on the steps you were taking to mitigate 
DDOS attacks. What updates can you share with us?
    Mr. Pai. Congresswoman, we have provided a detailed 
response to the committee, and I would be happy to provide that 
to you with some of the particulars in that regard.
    But what I can say is that our IT staff is always vigilant 
to make sure that we have the protocols in place to make sure 
that our IT systems are up and running. And I have appreciated 
the chance to work with this committee, as well as our 
appropriators, to get the funding to make sure that continues 
to be the case.
    Mrs. Dingell. I will leave you off the hook and ask 
Commissioner Rosenworcel, do you think that the public-interest 
standard requires that you look at the effect of Commission 
actions on small businesses and consumers?
    Ms. Rosenworcel. Absolutely. Small businesses create two-
thirds of the new jobs in the economy. The Commission should 
always be thinking about the impact on small business, and I 
think the public-interest standard incorporates that.
    Mrs. Dingell. Thank you.
    A lot of us have already asked this question, so I am just 
going to make an observation and see if you all agree or 
disagree with me.
    Mergers of the scale of the Sinclair-Tribune are not always 
popular, but I can't ever remember when everybody was so 
opposed to the idea. Can any of you think of a merger that has 
met this type of united opposition?
    Ms. Rosenworcel. No.
    Mrs. Dingell. Commissioner Clyburn?
    Ms. Clyburn. I can say that, within my last 8-plus years, 
this is the most energized that I have seen diverse parties.
    Mrs. Dingell. And anybody else that wants to say something.
    Mr. O'Rielly. I will jump in here. I used the word 
``energize.'' But I would say that I have seen it before, and 
that is the reason we have a 39 percent cap. It was a result of 
a transaction that caused a lot of uprest between the 
relationship between the network and an affiliate. And that is 
the reason the Congress stepped in at the time and addressed 
it.
    So in terms of the excitement or energy, I have seen the 
energy level far beyond what it is today in that----
    Mrs. Dingell. But the broad spectrum of people opposing is 
unusual.
    I may yield back my 9 seconds, Madam Chair.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Madam Chair. And I thank the 
commissioners for being here today.
    I have heard some buzzwords that caught my attention. Full 
Chairman Walden talked about the complexity of the telecom 
environment and how difficult your job is, and I agree with 
that. Commissioner Clyburn talked about how the technology is 
necessary to create opportunities for Americans, particularly 
in rural America. And it took me back a little bit, and I have 
been thinking about this for the last several months, how 
important your job is.
    If we look at the hundred years of American history, from 
1868 to roughly 1970, we started out in 1868 at the most 
divided point that our Nation has ever been in, at the end of a 
brutal and bloody Civil War. We healed our internal wounds to 
go in to fight off tyranny in Europe in two world wars, 
mobilizing from scratch both times, practically. Did the same 
thing in Korea. And at the same time in that hundred-year 
period, from 1868 to 1970, we saw one of the most explosive, 
innovative periods in human history: the light bulb, the 
combustion engine, the automobile, the mass production of 
automobiles, the assembly line process, the industrialization 
of Western cultures, the airplane, powered flights, space 
travel, landing a man on the Moon, organ transplants, 
telecommunications and computing technologies, nuclear power. 
That, I think, the case could be made that that was one of the 
most innovative periods in human history.
    I talk about that a lot to people that I represent back in 
Ohio, because then I follow it with a question. What have we 
done since 1970? You know what answer I get most often? The 
internet, telecom. And why is that the case? I believe that is 
the case because it is the one area that the Federal Government 
couldn't figure out how to regulate. If you go back to the 
1970s, that is when the EPA came into being, that is when the 
Department of Energy came into being, that is when the 
Department of Education came into being. All of a sudden back 
in the 1970s, Washington kind of thought that the American 
people had it wrong for all that time.
    Instead of telling the American people what we should be 
innovating on and what we should be focused on to create 
opportunities for the American people, Washington started 
talking about how to innovate, where to innovate, when to 
innovate, why to innovate, and in many cases, picking the 
winners and losers and determining who should be able to 
innovate.
    So I throw that out there just as a thought provoker to you 
folks. Your job is so vitally important. We can't throw water 
on the campfire of American innovation and ingenuity. And I 
would submit that if we really want to create opportunities, if 
we would just look at our own Nation's history and realize that 
if Washington would just get out of the way, in many regards 
that the American people are more than capable of creating 
their own opportunities through innovation and ingenuity. And I 
think that is an important thing for you folks to remember. And 
I see the attitude of the Commission today, and I think that is 
what you are trying to do. So I applaud that.
    Let me ask you one quick question here, and it is a yes or 
no question, so it will be easy, especially for Commissioner 
O'Rielly. He is good at this. In 2013, it was reported that the 
Justice Department had spied extensively on Fox News reporter 
James Rosen in 2010, collecting his phone records, 2 days' 
worth of his personal emails, and tracking his movements to and 
from the State Department. So in the 32 seconds that I have 
remaining, each of you, starting with Mr. Carr, Commissioner 
Carr, did this raise First Amendment concerns for you at that 
time? Yes or no.
    Mr. Carr. I think what I said is that it reinforces----
    Mr. Johnson. Come on now, follow Mr. O'Rielly.
    Mr. Carr [continuing]. The importance of the Commission, as 
everyone has said, being committed to the First Amendment in 
everything that we do at this agency.
    Mr. Johnson. OK.
    Ms. Clyburn. That is an interesting question. I will say it 
raised personal and privacy and other concerns.
    Mr. Johnson. OK. All right.
    Mr. Pai. I agree with Commissioner Carr.
    Mr. Johnson. OK.
    Mr. O'Rielly. Yes.
    Mr. Johnson. You are good.
    Ms. Rosenworcel. That is a disturbing tale. Yes.
    Mr. Johnson. OK. Thank you.
    Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui for 5 minutes.
    Ms. Matsui. Thank you very much, Madam Chair.
    First of all, welcome. I am glad to see all of you here, 
and I especially want to welcome back Commissioner Rosenworcel 
and welcome Commissioner Carr.
    Mr. Carr. Thank you.
    Ms. Matsui. As co-chair of the Congressional Spectrum 
Caucus with my good friend, Representative Guthrie, we are very 
focused on the opportunity to unleash new spectrum that will 
help us get to 5G. We have introduced legislation that provides 
financial incentives to Federal agencies to reallocate unused 
or underutilized spectrum holdings.
    Commissioner O'Rielly, will you commit to working with us 
to try to strike an appropriate balance for the 3.5 gigahertz 
band that will be the foundation for 5G deployment?
    Mr. O'Rielly. Well, I am not in charge of the 3.5. The 
chairman was nice enough to have me take some of the lead. But 
we are going to work as an agency to dispose of our item that 
we adopted yesterday. So I will work with, of course, the 
committee in any capacity and take its views into account in 
terms of my vote.
    But in terms to your point that you raised, which is the 
incentives for Federal agencies to clear bands, I have also 
made the point that it is not just incentives; we need the 
carrot and the stick. So we need some more of the stick. And so 
I think that those two pieces have to go hand in glove. And I 
would be happy to work with you on putting some of the stick 
into your legislation.
    Ms. Matsui. OK. Commissioner Rosenworcel, so I think we 
talked about this before. Would you like to add a comment or 
two?
    Ms. Rosenworcel. Yes. I believe carrots work better than 
sticks. And I think when it comes to spectrum policy, what we 
need to do is make Federal users internalize the cost of their 
holdings. They need to be able to report at some level what the 
value of what they have today is, and then we need to figure 
out how to give them incentives so that they see gain and not 
just loss from reallocation.
    Ms. Matsui. OK. I can see a carrot and a stick here working 
very well together. So thank you.
    Today, everyone needs a broadband connection, we all know 
that, in every part of the country. And I have over 20,000 
constituents utilizing the Lifeline program to obtain access to 
broadband. This is a real program that is helping low-income 
families access communications that are essential in our 
digital academy. The National Lifeline Eligibility Verifier 
will be a significant step toward this goal, but will not be 
fully up and running until 2019. Now, in August, I wrote to the 
Commission to request steps that the FCC is taking to implement 
the verifier.
    Chairman Pai, I received your response last night. Could 
you give me an update on getting the National Verifier fully up 
and running, and commit to providing me and the committee with 
regular updates in the future?
    Mr. Pai. Congresswoman, I will take the second piece first. 
Yes, the quarterly reports will be forthcoming, and I think our 
staffs have talked about that going forward.
    In terms of the first point, which is the update, we are on 
track. I have been advised to, in December of 2017, for what is 
called a soft launch of the National Verifier, with a full 
launch in early 2018. The first states that will be considered 
for the National Verifier, there are six of them, it is 
Colorado, Mississippi, Montana, New Mexico, Utah, and Wyoming. 
And in 2018, USAC will roll out at least an additional 19 
states in the National Verifier. And USAC has been working with 
other stakeholders under our oversight, with your consumers 
groups and carriers and others, to make sure that that verifier 
works and actually serves consumers' needs.
    And so we would be happy to work with you continuously on 
this issue. And I thank you for flagging it for our attention.
    Ms. Matsui. OK. I appreciate that.
    Commissioner Clyburn, can you talk about what is needed at 
the FCC to ensure the Lifeline program remains an option for 
low-income households to access the communications or broadband 
moving forward?
    Ms. Clyburn. We need to have the mechanism to encourage 
providers to get involved and to provide more opportunity. If 
you know, back in February, we stopped nine providers that did 
nothing wrong from gaining access and for offering 
opportunities. And some of them had to even discontinue 
service. So we need to give the states the power and the 
ability they need to include to have Lifeline providers 
particularly for broadband. And we need to get out of the way. 
The FCC is not getting out of the way and allowing these 
reforms that have been--the contours that have been laid out to 
happen. So we are in the way of Lifeline becoming a phenomenal 
program.
    Ms. Matsui. OK. Well, at this point.
    Thank you very much. And I will yield back some of this 
time, Madam Chair.
    Mrs. Blackburn. Awesome. Not in the running for the prize, 
but getting close.
    Mr. Flores, 5 minutes.
    Mr. Flores. Thank you, Madam Chair. And I want to welcome 
Commissioner Carr, Commissioner Rosenworcel to the Commission. 
It is great to have you here for your first testimony today.
    We all know that reliance on mobile networks is growing at 
a breakneck pace. My question is this: What more does the FCC 
and Congress need to be doing to ensure that we keep up with 
consumer and business demands for mobile?
    So I will start with you, Commissioner Carr.
    Mr. Carr. Thanks for the question.
    Mr. Flores. Just short answers, if you can.
    Mr. Carr. Yes. My principal focus right now is 
infrastructure deployment. We have to streamline the rules. The 
current regime, we have relatively few small cell deployments. 
We are going to need to get to millions of cell sites pretty 
quickly here, so we have got to streamline the process.
    Mr. Flores. OK. Commissioner Clyburn.
    Ms. Clyburn. We need to focus on the areas where we have 2 
and 3G service. That is why I was pushing so much for the 
Mobility Fund Phase II. And we need to talk about 
affordability, which is why I am pushing for a Lifeline 
program.
    Mr. Flores. OK. Chairman Pai.
    Mr. Pai. I agree with my colleagues. I would also add that 
spectrum, of course, is a critical input from 600 megahertz all 
the way up to 95 gigahertz.
    Mr. Flores. OK. And I think Commissioner Rosenworcel went 
through that list, although I couldn't write that fast.
    Commissioner O'Rielly.
    Mr. O'Rielly. Three things. Infrastructure, which means 
preemption. Two, it is spectrum, which we have talked about. 
And, three, it means deciding what to do on those hardest-to-
reach individuals we don't have a plan for today.
    Mr. Flores. OK. Commissioner Rosenworcel.
    Ms. Rosenworcel. I will give you one thing, which is we 
should set a time for auctioning the 28 gigahertz band, make it 
our first millimeter wave band so that we can lead the world in 
5G and millimeter waves.
    Mr. Flores. And so the first priority is that auction. Is 
that correct?
    Ms. Rosenworcel. I believe so, yes.
    Mr. Flores. OK. Thank you.
    I want to go back to the First Amendment conversations we 
have had today. Yes or no answers will be appropriate for this 
one. In 2013, the Justice Department revealed that they had 
been secretly combing through the work, home, and cell phone 
records of almost 100 Associated Press reporters and editors in 
what appeared to be a fishing expedition for sources of leaks, 
as well as an effort to frighten off whistleblowers. Did this 
action raise First Amendment concerns for you, Commissioner 
Carr?
    Mr. Carr. This is what drives some of the importance of us 
committing to the First Amendment and always acting consistent.
    Mr. Flores. OK. That is a yes.
    Commissioner Clyburn.
    Ms. Clyburn. Not sure how to answer that at this point.
    Mr. Flores. Yes or no would be easy.
    Ms. Clyburn. Yes or no. I'm sorry.
    Mr. Flores. Chairman Pai.
    Mr. Pai. Yes.
    Mr. Flores. OK.
    Mr. O'Rielly. Yes.
    Ms. Rosenworcel. That sounds troubling.
    Mr. Flores. All right. I appreciate the work you all have 
been doing for AM revitalization, particularly your orders from 
February and September. Let's continue along that line for a 
minute. In general, what is the status of your efforts to 
revitalize AM radio?
    We will start with you, Chairman Pai.
    Mr. Pai. Thanks for the question, Congressman. So the 
translator window has been a success. A great many folks have 
applied for an FM translator, and we are in the process of 
processing those. I would anticipate by the end of the year we 
will have several hundred of those that will be processed. And 
going forward, we are thinking about some of the bigger-picture 
issues that are of interest to broadcasters. And we are trying 
to sort through the record and see if we can find a consensus 
on some of those issues.
    Mr. Flores. OK. And you answered my second question in that 
regard as well.
    What can this committee do to be helpful to encourage a 
revitalization of AM radio?
    Mr. Pai. Certainly, we will take all the support from 
whatever corridor we can get it. I can tell you, as my 
colleagues will probably agree, that I have never been shy 
about the issue of AM revitalization. So you don't need to 
encourage me. But I will say that it is important to talk about 
the importance of the work that AM broadcasters do in their 
communities every day. And I know you visited some of these 
stations. I have too. And to me they are not just call signs. 
WRDN and KZPA and KKOW. These are folks who really are keeping 
the lights on and keeping their communities informed.
    Mr. Flores. In my community it is WTAW and KWTX.
    I assume the entire Commission's on board with that?
    OK. Everybody shook their heads yes. That is good.
    Mr. Pai. That is across the board, I hope.
    Mr. Flores. Across the board. That is what I meant. It 
seemed to me like that was one area where we had good 
cohesiveness among the Commission.
    For all of you, I understand that other countries are 
moving rapidly to make mid-band spectrum available for 5G 
services. Particularly China, Japan, and South Korea are all 
making spectrum available to win the global race to 5G. My 
question is this, for each of you--two questions. One is, in 
the United States, are we risking falling behind those other 
countries if we don't catch up on making mid-band spectrum 
available for 5G?
    Commissioner Carr?
    Mr. Carr. I think we are in good shape right now with the 
high-band spectrum that we have opened up. But as your point 
says, we have got to keep the pedal down and keep moving 
forward. And we have a number of proceedings right now that the 
chairman has teed up that will let us do that. So I am 
confident about where we stand right now.
    Mr. Flores. OK. Commissioner Clyburn.
    Ms. Clyburn. I agree. And our spectrum management policies 
have to be all of the above to make sure we get the optimal use 
with the optimal players.
    Mr. Flores. OK. Chairman Pai.
    Mr. Pai. Yes.
    Mr. Flores. OK.
    Mr. O'Rielly. High-band spectrum is great and it is part of 
the equation, but we have to address the mid-bands. 3.5, 3.7 to 
4.2, 3.1 to 3.5, we have to take action on those going forward.
    Ms. Rosenworcel. I am not the only one with a list.
    Mr. Flores. That is right. That is good.
    Ms. Rosenworcel. I think we are at risk of falling behind. 
And I think we need something simple. We need a calendar for 
which bands are moving at what time.
    Mr. Flores. OK. I would like to work with you on that some 
more, if we can, on the calendar.
    So thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Clarke for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair. And I thank 
our Ranking Member Doyle. I thank our commissioners, Chairman 
Pai. And Commissioner Carr, welcome.
    Mr. Carr. Thank you.
    Ms. Clarke. Commissioner Rosenworcel----
    Ms. Rosenworcel. Perfect.
    Ms. Clarke [continuing]. Welcome back. Of course, it is 
good to see you, Commissioner Clyburn.
    I wanted to just talk about how important today's hearing 
is. There is so many pressing matters and changes happening 
under the FCC's authority, on a daily basis it seems. And I can 
say that it has been quite instructive and interesting just 
listening to today's proceedings and your answers regarding 
these issues and the significance in facilitating announced 
changes.
    So I want to talk about a couple of things that are 
currently on my mind. And as co-chair of the Multicultural 
Media Caucus with colleagues Rep. Cardenas and Rep. Chu, we are 
extremely interested in the recent media ownership changes.
    As you have indicated, Chairman Pai, the Commission is 
poised to take up an item to modify the local TV ownership rule 
at the next Commission meeting. This important rule provides 
for diversity of voices and ownership at the local level by 
limiting ownership of more than one TV station to the largest 
markets. So hypothetically, Commissioner Pai, if the Commission 
were to modify the local TV ownership rule next month by 
adopting a case-by-case approach, who do you think should have 
the burden of proof? Those seeking more consolidation or those 
seeking to maintain diversity of ownership?
    Mr. Pai. Congresswoman, as always is the case, if a 
prohibition remains and the party is seeking a relaxation of 
that prohibition on a case-by-case bases, the petitioner would 
bear the burden of proof that that application was in the 
public interest.
    Ms. Clarke. So let me ask Commissioner Clyburn and 
Rosenworcel. Do you have any substantive or process concerns 
with the potential modification of local TV ownership rules?
    Ms. Clyburn. Well, one of the things that we were demonized 
for was trying to look at the media ecosystem. I don't think we 
have the tools and the data needed to make these wholesale 
changes. There are 67 women-owned broadcast stations, 12 
African-American-owned stations. Clearly, our policies must be 
out of sync because that is not diversity and inclusion in any 
stretch of the way.
    Ms. Rosenworcel. Thank you for the question.
    Listen, media ownership matters. What we see on the screen 
says so much about who we are as individuals, as communities, 
and as a Nation. And right now, when you look at the ownership 
structure, it does not reflect the full diversity of this 
country. I am worried that with more consolidation, that is not 
going to get better; it is going to get worse.
    Ms. Clarke. OK.
    Mr. O'Rielly. Can I just comment and say----
    Ms. Clarke. Certainly.
    Mr. O'Rielly [continuing]. The situation we have today is 
under our current rules, and those rules have been in place for 
so long, they haven't worked. We ought to try something new.
    Ms. Clarke. Here's the question: You are saying that it 
hasn't changed. We are not certain whether what you are 
proposing will make it even worse.
    Mr. O'Rielly. It is really hard to get much worse.
    Ms. Clarke. You think so? I know that that is not the case.
    Mr. O'Rielly. The numbers are so low. I mean, 12. The 
numbers are really low, and it has been----
    Ms. Clarke. Right.
    Mr. O'Rielly. And there are a lot of reasons why they are 
going to go even lower, because----
    Ms. Clarke. And what you are saying is your new proposal is 
going to transform that?
    Mr. O'Rielly. No. I am saying that the current----
    Ms. Clarke. No. What I am asking you is your new proposal 
is going to transform that?
    Mr. O'Rielly. I think it is given----
    Ms. Clarke. Is that what you are saying?
    Mr. O'Rielly. I am saying----
    Ms. Clarke. Are you saying here today that this new 
proposal is going to transform that? Yes or no.
    Mr. O'Rielly. Well, it is not my proposal and----
    Ms. Clarke. I am just asking.
    Mr. O'Rielly. But, in general, I am hopeful that it 
provides a better opportunity----
    Ms. Clarke. You are hopeful. OK.
    Mr. O'Rielly. Because the current situation isn't working.
    Ms. Clarke. Commissioner Pai.
    Mr. Pai. Yes. The answer is yes.
    Ms. Clarke. You think it will?
    Mr. Pai. Absolutely. Part of the reason why we don't have 
more diversity is because the Commission, several years ago, 
the prior majority, rejected my suggestion for an incubator 
program and other diversity proposals. Part of the reason why 
we don't have diversity is because the prior administration let 
the diversity committee lapse, so we haven't had input from 
stakeholders. I reconstituted that diversity committee several 
months ago, and specifically tasked one of the working groups 
with promoting more diversity in the broadcast business. Part 
of the reason we don't have more diversity is because the prior 
administration outlawed JSAs.
    I have met with Pervis Parker----
    Ms. Clarke. Are you saying that this is going to be a pilot 
project or is this going to be a wholesale change?
    Mr. Pai. We are seeking comment on the scope of the 
incubator program, but we will----
    Ms. Clarke. Are you saying this is going to be a wholesale 
change or a pilot program?
    Mr. Pai. The incubator program?
    Ms. Clarke. Yes.
    Mr. Pai. If we get the public input we need, this is going 
to be a real program.
    Ms. Clarke. OK. Let me move on to my next question, because 
I only have 18 seconds left. And I would like to ask--and we 
can talk about that further.
    I have been working with Congresswoman Plaskett with 
respect to the U.S. Virgin Islands. And specifically, is the 
FCC engaged to assist Puerto Rico and the U.S. Virgin Islands 
regain the telecom capabilities in the wake of last month's 
hurricane season? And what must we learn from these hurricanes 
and their impact on existing communications infrastructure?
    Mr. Pai. Yes, Congresswoman, is the answer to your 
question. I have personally called the Congresswoman's office 
and offered our assistance as well. In addition, I make sure 
that I have talked to some of the stakeholders, just as I have 
in Puerto Rico, stakeholders, tower companies, wireless 
companies and others, who might have had infrastructure 
affected in the U.S. Virgin Islands. I also conveyed to FEMA 
and to others that, to the extent there are power issues in the 
U.S. Virgin Islands, we would love for those communications 
power requirements to be elevated in terms of getting that 
infrastructure onto the island. And, obviously, there are 
hospitals and schools and other things that are competing for 
attention, but communications networks are critical too. So we 
are working on it.
    Ms. Clyburn. And as the chairman would also tell you that 
we forwarded a universal service--we green-lit universal 
service money so people have hard dollars to rebuild their 
telecommunications systems.
    Mr. Pai. And I proposed just yesterday doing something 
similar for E-rate, for schools and libraries to be able to 
help those in need.
    Ms. Clarke. Madam Chair, I yield back. And thank you.
    Mrs. Blackburn. You are welcome.
    Mrs. Walters, 5 minutes.
    Mrs. Walters. Thank you, Madam Chair.
    I would like to thank the witnesses for being here today, 
and welcome the two newest FCC commissioners.
    5G deployment is important to my district where the 
majority of the residents have multiple wireless devices and 
are increasingly using IoT technology. Further, investment in 
5G deployment has the potential to create over 2,300 jobs in my 
district. A recently released survey found that 5G will improve 
business operations and competitiveness, which further 
demonstrates the need to deploy this technology.
    Since joining the subcommittee at the beginning of the 
year, I have focused on issues related to the sitings of 5G 
infrastructure. Earlier this month, the Governor of California 
vetoed a bill that would have established uniform standards 
across the state for the installation of 5G equipment. The bill 
would have limited the ability of local governments to block 
antenna placement. It would have also capped installation rates 
on public properties such as traffic lights. But California 
isn't the only state where siting is an issue. I would like to 
get your thoughts on some of the issues 5G deployment is 
facing.
    Chairman Pai, can the FCC take immediate action to work 
with states and localities to streamline the siting process? 
And if so, could you briefly discuss what the Commission can do 
to address these issues?
    Mr. Pai. Thank you for the question, Congresswoman. The 
answer is yes. And we teed up earlier this year in our wireless 
infrastructure proceeding a number of different tools that we 
could use to help streamline that approval process. And I am 
hopeful that together we can move on that relatively soon.
    Mrs. Walters. All right. Great.
    And, Commissioner Carr, congratulations on your 
confirmation.
    Mr. Carr. Thank you.
    Mrs. Walters. Your testimony mentioned the importance of 5G 
and the need for infrastructure to deploy this technology. Are 
you concerned that local zoning requirements throughout the 
country, not just in California, are impeding the deployment of 
the infrastructure necessary for 5G services?
    Mr. Carr. I am concerned. I was disappointed to see the 
veto of that small cell bill. Again, we are going to see a 
massive new deployment of small cells. The current regime is 
not tailored to support that type of deployment. If we are 
going to get 5G across the finish line, this could be the real 
bottleneck is these infrastructure deployment rules. So I am 
glad that we actually have a number of steps teed up at the 
Commission, and I look forward to working with my colleagues to 
get them across the finish line.
    Mrs. Walters. OK. Thank you.
    And this third question I have, and you touched a bit on it 
just a few minutes ago. But, Chairman Pai, as you know, 
wireless networks in Puerto Rico were devastated by Hurricane 
Maria. Networks in east Texas and Florida were impacted by 
Hurricanes Irma and Harvey. And the fires in my home state have 
damaged wireless infrastructure in California. And I commend 
you for speeding the availability of USF funds to carriers in 
Puerto Rico to accelerate rebuilding of these critical 
communication networks.
    Will the FCC contemplate similar efforts to support 
reconstruction in other states impacted by this fall's natural 
disasters?
    Mr. Pai. We are certainly open to hearing that case and to 
taking action if appropriate.
    Mrs. Walters. OK. All right. Thank you.
    And I yield back the balance of my time.
    Mrs. Blackburn. And the winner is. All right. Way to go, 
Mimi.
    All right. Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you very much. Welcome to the full 
Commission. It is really tremendous to see you at full 
strength. Congratulations on your confirmation.
    Mr. Carr. Thank you.
    Mr. Welch. It is very good to have you back, Commissioner. 
It wasn't a swift process, but it had an end result.
    And, Mr. Chairman, congratulations to you as well.
    Mr. Pai. Thank you.
    Mr. Welch. Net neutrality we have talked about some. And we 
know the debate here, in my view, was that the actions of the 
previous Commission made a lot of sense. But my understanding 
is that your Commission is opening that up. You have heard 
millions of comments. The apprehension among the industry has 
largely been that there may be a new Commission at some point 
that is overbearing, but they won't necessarily agree to put in 
a statute. There are assurances that they give privately and 
publicly that they won't do anything to interfere with net 
neutrality. So there is a skepticism on their part about the 
durability of the current practice, which worked well.
    But isn't it fair for consumers to have some skepticism 
that when CEOs change in these companies, when shareholders 
start demanding a bigger return, that there won't be the 
pressure to do things that advantage the company at the expense 
of the folks who need solid net neutrality?
    Chairman Pai?
    Mr. Pai. I appreciate the question, Congressman. Obviously, 
we are now engaged in the question of what is the regulatory 
framework best calibrated to preserve the free and open 
internet----
    Mr. Welch. Here's my question, though. Why not have it be 
embodied in a statute? They are saying to us, as I assume they 
are saying to you, that they want to maintain that neutrality. 
But that is who is in those executive offices now. There will 
be other people there later. So do you consider that to be a 
valid concern on the part of those of us who want to make 
certain that we preserve net neutrality?
    Mr. Pai. Congressman, all I can say is what I said in the 
wake of the 2014 D.C. Circuit Court decision myself, which is 
that the proper course, I think, is for Congress to ultimately 
decide what the rules of the road are going to be. That is 
obviously----
    Mr. Welch. I don't have a lot of time.
    So, Commissioner O'Rielly, you looked like you wanted to 
say something. Quickly.
    Mr. O'Rielly. Well, I think, if I heard you correctly, you 
said embody it into statute. And I would say, yes, that is the 
law, and you have an opportunity in this committee to craft a 
law and then decide whether we should go forward. And I think 
that is what members of this committee were contemplating for a 
number of months.
    Mr. Welch. But we haven't seen the statute. The majority 
has to act on that.
    Commissioner Rosenworcel.
    Ms. Rosenworcel. I support net neutrality. Our internet 
economy is the envy of the world. It is built on a foundation 
of openness. I think our current rules support that openness. 
They have been sustained in courts, and they are wildly 
popular. I am at a loss that we would decide to take them away.
    Mr. Welch. OK. Thank you. A lot of us are from rural 
America, Republicans and Democrats up here. In fact, Mr. Latta 
and I started a rural broadband caucus. A real concern we have 
is not only deployment. We are so lagging behind. It is the 
speed. And there has been some movement toward reducing what is 
considered to be the adequate speed. That would be very 
damaging to us in rural America.
    Commissioner Clyburn, do you want to comment on that?
    Ms. Clyburn. I think any talk about slowing things down--
sub 253 is problematic. It is problematic for keeping and 
ensuring that rural America catches up. You haven't caught up, 
and that is problematic. So that is why this talk of loosening 
these standards, of lowering speeds is just very problematic to 
me, and that is not the direction we need to go.
    Mr. Welch. Commissioner Rosenworcel, you were in 
Burlington, Vermont, I appreciate your visit, talking about the 
homework gap. Burlington is not where we have the issue. That 
is an urban area. They have high speed. But a lot of Vermont is 
much like a lot of rural America; it is slow. And rural America 
in rural Vermont is on its heels economically. We have to have 
this tool to have any shot at getting back in the game. Your 
view on it lowering the standards.
    Ms. Rosenworcel. Oh, I think lowering the standard is 
crazy. I believe you have to set audacious goals if you want to 
do big things. And deciding that we can get 100 megabit speed 
to everyone in this country is worth the effort, including 
rural America.
    Mr. Welch. OK. Chairman Pai, you have got a real history of 
rural America, so----
    Mr. Pai. Yes.
    Mr. Welch. I am hoping that you are not going to be in 
favor of changing the definition for rural America.
    Mr. Pai. A few different points, Congressman. First, the 
actual proposal is to maintain the 253 standard. There is no 
proposal other than that. Secondly, I am a little puzzled by 
the criticism, because when the prior majority actually had the 
pen and had the ability to do something for folks in rural 
America, in December of 2014, they decided to allocate billions 
of dollars of funding for 10 megabit per seconds connectivity 
in rural America. According to them now, that is not broadband.
    Last year, when we reformed the Lifeline program, I 
specifically suggested that we increase the speeds to 25 
megabits per second to say, well, if the FCC is saying this is 
broadband, poor consumers should get broadband. The prior 
majority specifically rejected that suggestion. And so I think 
it is a little hollow now to somehow just be grandstanding on 
this issue----
    Mr. Welch. My time is up. I won't argue with you about 
that, but you are in the chair now.
    Mr. Pai. That is why a proposal is to maintain the 253 
standard.
    Mr. Welch. So does that give us assurance that there is not 
going to be any suggestion to lower that standard?
    Mr. Pai. Congress charged us with taking a look at what is 
connectivity. And as a part of that, we have to seek comment on 
what is the impact of mobile broadband? What do consumers use 
the internet for? Are there some applications that they require 
10 megabits per second or some other standard? That is 
basically what we are trying to do. But the lead proposal is to 
maintain that standard.
    Mr. Welch. OK. Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Olson, 5 minutes.
    Mr. Olson. I thank the chair, and welcome to our witnesses. 
And a special welcome, Commissioner Rosenworcel. I spent a few 
weeks with my dad in ICU. It is not a pleasant time to have a 
loved one, a parent, in the hospital, so thank you so much for 
coming. We are praying for you.
    Ms. Rosenworcel. Thank you.
    Mr. Olson. My first question and comments are for Chairman 
Pai. Thank you so much for coming down to Houston to see the 
devastation of Hurricane Harvey firsthand. You saw it with your 
own eyes. Hit us twice, came back. Fifty inches of rain in 
parts of the district, parts of the county. We did very well, 
but we can do much better.
    I would just like to ask you, what do you see with respect 
to forwards of communication networks throughout the region 
during Hurricane Harvey? What are the steps the FCC is taking 
to support the restoration and recovery efforts back home?
    Mr. Pai. I appreciate the question, Congressman, and your 
leadership on this issue. I know you have been active in trying 
to inform your constituents about where they could get help.
    A few different things. Number one, the FCC is working very 
proactively to make sure that we assist state and local 
partners in Texas. And I personally, as you mentioned, visited 
and offered my assistance.
    A few different things that we could do going forward. 
First, I was quite taken by a point that I learned at the 
Harris County 911 center, which is that part of the reason why 
the networks were relatively reliable compared to, say, Florida 
and Puerto Rico was because--despite the fact that 33 trillion 
gallons of water, as you know, were dumped on the Houston 
surrounding area, was because of the backhaul they had that was 
fiber-based as opposed to copper-based. And despite the fact 
that there was a huge amount of weight placed on those 
networks, because they were fiber, they were relatively more 
resilient. If it had been copper, it might have degraded or 
just disintegrated altogether.
    The second thing is that we all need to work together. We 
are all in this together. And I heard time after time that 
state and local partners and the industry relied on our 
disaster information reporting service, which was very helpful. 
And they also found it useful to have a point of contact at the 
FCC that they knew could provide assistance. So a lot of things 
that we are excited about going forward in terms of our 
disaster response. And we are going to apply some of that in 
Puerto Rico, and have already.
    Mr. Olson. And thank you.
    How about what is called the network resiliency framework? 
That, as you know, is the wireless industry initiative to 
better prepare and respond for times of emergency. Do you think 
this framework helped restore coverage faster than other recent 
natural disasters?
    Mr. Pai. There is no question. I heard firsthand from 
wireless providers when I was in Texas about how useful that 
had been. The other piece that I should mention that was very 
useful is that, as I understand it, the Governor's office, 
Governor Abbott's office, provided some of these wireless 
companies with information as to where the flooding was. And 
some of the companies were able to overlay that information on 
where they saw their cell networks up or down. And they were 
able to target in some places, OK, we see there is huge 
flooding here, but there are people actually on the network. We 
need to get help there. And so that overlay is the kind of 
serendipitous, I think, benefit that, going forward, we will be 
able to take advantage of in other jurisdictions.
    Mr. Olson. Anything we could learn from Harvey? Anybody 
want to comment on those? I know he was down there. He saw it 
firsthand, but----
    Ms. Rosenworcel. I would just want to mention, the wireless 
network resiliency that you cited was the industry coming 
together in the aftermath of Hurricane Sandy. And, in fact, we 
have it in place because we learned from that past disaster. 
And it is my hope that we will learn comparably from this one.
    Mr. Olson. Great. Well, I am about out of time here.
    Commissioner Carr, I believe you are going to Texas, 
Houston, see for yourself?
    Mr. Carr. Yes. On Friday I will be in Houston meeting with 
broadcasters to hear about what the FCC can continue to do to 
support the recovery efforts down there.
    Mr. Olson. Great. They are thrilled to hear that.
    One thing I have to warn you about. Can you say y'all?
    Mr. Carr. I will work on it.
    Mr. Olson. And can you say ``beat L.A.''?
    Mr. Carr. Yes.
    Mr. Olson. Well played.
    And, Commissioner Pai, I know you are a baseball fan, a 
huge baseball fan of pro baseball. And as I sort of alluded to, 
the L.A. Dodgers are playing my Houston Astros in the World 
Series. Yesterday, we had a rough day. Didn't quite do as well 
as I wanted. But that morning, all over Capitol Hill, signs 
popped up about that game, especially, this sign popped up on 
the door of the majority leader from California.
    In having jurisdiction over Federal communications, let's 
make sure that is not some Federal offense you are looking at. 
I neither confirm nor deny my involvement in those operations. 
And one thing too, Commissioner Pai, just what is your 
prediction? Astros in five, six, or seven games?
    Mr. Pai. Well, Congressman, first I want to reiterate. I 
stand in favor of the First Amendment and your right to plaster 
everybody----
    Mrs. Blackburn. And the gentleman's time has expired.
    Mr. Olson. I like the word ``plaster.''
    Mrs. Blackburn. Mrs. Brooks, 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairman. And thank you and 
congratulations to all of those who have recently gotten 
confirmed.
    Just recently, I joined with my colleague across the aisle, 
Debbie Dingell, to form a 5G caucus. And we had our first 
briefing with congressional staff yesterday, led by CTIA. And I 
am learning more and more about 5G. This is not something that 
I think is commonly understood among the citizens of our 
country. And a slide was put up during the presentation that 
talked about the global race being on for 5G. And, quite 
frankly, because we have often been the leaders in innovation 
and technology in the world, I was a bit surprised to see it 
appears that China and Europe and others may be further along 
in 5G deployment than in the United States.
    Now, obviously, some of those countries, particularly 
China, for instance, don't have the division in governments 
between Federal, state, and local jurisdictions the way that 
our great democracy does. But how are we taking that into 
account, and what should our role be in Congress? And what can 
the FCC and our role in Congress do to better partner with our 
state and local governments? Because I think we are struggling, 
quite frankly, particularly in state legislatures, either 
educating or understanding what this race is about and how we 
are, I think, falling behind.
    Chairman Pai, would you like to start as to what we could 
be doing differently and better? Because I think we all, from 
what I can tell from your responses today, we are in agreement 
here that we all need to do a lot more and a lot better. But 
what does it mean for us, A, to fall behind, and what should we 
be doing? And I am pleased, Indianapolis, that I represent the 
northern part of, is a 5G test site. But I think we are way 
behind these other countries.
    Chairman Pai.
    Mr. Pai. I have an answer, Congresswoman. And before I 
start, thanks for the hospitality you showed me in Noblesville 
back in the district.
    With respect to the first, I think there is a significant 
opportunity cost that attaches to American inertia on this 
issue. If we don't lead, there are plenty of other continents 
and countries that are more than happy to take that lead. And 
one of the things I have learned in this role as I liaise with 
my counterparts in other countries, is that they are quite 
eager to capitalize on what they see is a lesson of the 4G 
revolution, which is that America was forward-thinking in terms 
of spectrum and infrastructure. And as a result, not that long 
ago, we had 4 percent of the world's population and 50 percent 
of the world's 4G LT subscriptions. Europe and China, among 
others, they don't want that to happen with 5G. And so they are 
trying to be very aggressive in terms of spectrum and, in some 
cases, infrastructure as well.
    I think it is important for the FCC, but not just the FCC, 
to think very creatively about this issue. Working with 
Congress and with state and local governments, as Commissioner 
Carr first pointed out in his testimony, we really need to have 
a serious conversation about what is the appropriate regulatory 
framework for 5G. Is it this trifurcated or even quadfurcated 
system of regulation, or is there a more streamlined approach 
that we need to consider? I recognize the equities are 
difficult here. But at the end of the day, if national 
competitiveness in the wireless world is our priority, then we 
have to make some very difficult decisions.
    Mrs. Brooks. And I appreciate the need for a calendar, the 
need for the discussions with state legislatures. But what is 
the FCC doing--and I'm sorry that I might have missed part of 
that--relative to educating state legislatures and local 
communities? Because in our state, which did pass some 
legislation this last session, it was a fight between local 
jurisdictions and the state legislature. And so what can we and 
the FCC be doing, I think, to maybe educate, in large part, or 
have these really tough discussions? I don't know if 
Commissioner Carr----
    Mr. Carr. Sure. There is a number of steps that the FCC is 
taking and can continue to take on this. We have an advisory 
committee where we have representatives from local government 
on that that we can help have these discussions. But to your 
broader point, this is critically important. The U.S., that we 
heard, led the world in 4G. The regulatory structures we have 
right now are going to be the bottleneck that hold us back. But 
I am confident that, right now at the Commission, we have the 
momentum to move forward to try to streamline some of those, 
and it is going to make a real difference. As I have said in my 
testimony, we can shift entire communities from being 
uneconomical for the private sector to deploy to to becoming 
economical simply by streamlining the deployment rules.
    Mrs. Brooks. Can, briefly, someone say why it is important 
that we win this? Anyone?
    Mr. Pai. Well, risk capital is fickle. It will go to any 
country in the world where it thinks that innovation will find 
a home and that an investment will yield a return. And that 
doesn't necessarily have to be the United States in the 21st 
century.
    Ms. Clyburn. I think if our policies are flexible that we 
include the needs of all communities, the voices of all 
communities, that we will win this race.
    Mrs. Brooks. Thank you. I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Doyle for----
    Mr. Doyle. Madam Chair, can I ask unanimous consent to 
waive Mr. Tonko onto the committee today?
    Mrs. Blackburn. Mr. Tonko. So ordered.
    Mr. Tonko. Thank you. Thank you, Chair Blackburn and Ranker 
Doyle, for you conducting what I think is a very important 
hearing. And welcome to all of our commissioners, and thank you 
for your service on what are very critical issues for the 
growth of our economy.
    Commissioner Rosenworcel, I recently introduced the Access 
Broadband Act to create an office of internet connectivity and 
growth within the National Telecommunications and Information 
Administration. Under this bipartisan legislation, that office 
would coordinate broadband deployment programs across our 
governments, among other things, to make sure we are all 
working together, pulling in the same direction.
    In your time at the FCC, do you believe that our agencies 
could do better coordinating with the various programs that 
serve broadband interests?
    Ms. Rosenworcel. Thank you for the question.
    Yes, more coordination is always going to make scarce 
dollars go further. And I think that is particularly true with 
respect to the FCC and the folks who are just up the road from 
us at the Agriculture Department, at the Rural Utilities 
Service, which runs grant and loan programs for rural broadband 
too. The more coordination, the better.
    Mr. Tonko. Thank you.
    Any other comments from any of our commissioners?
    Commissioner Clyburn.
    Ms. Clyburn. And also, when we are green-lighting those 
devices, we need to work closely with other agencies, in 
particular when we talk about telehealth and telemedicines. 
There are so many synergies that can be realized if we leverage 
those relationships we have inside of government.
    Mr. Tonko. Thank you. I appreciate that.
    Anyone else?
    If not, my bill would also task this office with tracking 
just how many consumers each of these programs serve so that we 
have a better sense of how many people are being connected, the 
cost of these programs, and where the consumers live.
    So, Chairman Pai, today, does the FCC know definitively how 
many Americans it helps to serve through the Connect American 
Fund?
    Mr. Pai. We have an estimate, but it is not as definitive 
as the metric that I think your legislation contemplates.
    Mr. Tonko. Right. Is there any way you can commit to 
providing my office or this subcommittee, the committee in 
general, with that information before the end of the year?
    Mr. Pai. So that information being the number?
    Mr. Tonko. Right.
    Mr. Pai. We would be more than happy to provide any 
information that we have that bears on that question.
    Mr. Tonko. Thank you.
    And, Commissioner Rosenworcel, if put in the right context, 
do you believe that the information would be valuable for 
policymakers, not just as it relates to the Connect America 
Fund but for all of the government's broadband programs?
    Ms. Rosenworcel. Absolutely. We can't manage what we don't 
measure. And if we get better broadband data, that can inform 
all of our communications policy. But as Commissioner Clyburn 
has acknowledged, it can inform things like healthcare policy 
too. So I think it is imperative.
    Mr. Tonko. Right. Thank you.
    I have found that sometimes people without high-speed 
broadband at their homes may not understand all the benefits 
that broadband can bring, and so education becomes important. 
That is why the Access Broadband Act includes educational 
components to help people learn what broadband can do for them 
and the difference it can make in a community, and what it 
means toward a stronger bit of economic recovery.
    So, Commissioner Clyburn, do you believe that there is 
value in the educational component of what we are attempting to 
do here?
    Ms. Clyburn. You talk about the educational component in 
terms of us, you know----
    Mr. Tonko. Broadband awareness and what it provides.
    Ms. Clyburn. Absolutely. Again, the commissioner talks 
about not measuring what--whatever you said is true. But 
sincerely, if you don't have the exposure, you don't know what 
is possible. You don't know what is possible for you to better 
age in place if you have connectivity, if you are not aware of 
the options and opportunities that you have. So there are so 
many things from an educational standpoint. We mentioned 
health. In terms of keeping in touch and knowing what is going 
on in government in real time. Those are the types of things 
that can better empower individuals only with connectivity, 
only with the awareness. And I think all of us have a role to 
play in ensuring that the public is informed so they can be 
better enabled to live those lives more fully.
    Mr. Tonko. Thank you very much. And finally, I know that 
there was some exchange with our colleague from Vermont. But 
the Commission is considering lowering its definition of 
broadband, or could. To be honest, it is hard to make sense of 
this proposal when I receive calls from my constituents day in 
and day out asking for faster broadband speeds. They don't want 
the FCC to lower the definition of broadband. They want a 
faster internet access.
    So while we did hear some of that exchange, are there other 
comments you would want to make about that definition of 
broadband to speed, definition?
    Mr. Pai. Two different points, Congressman. First, as I 
said, the proposal is to maintain the 253 standard. The second 
point I will add is that if you look at some of the decisions 
we have made in terms of our Universal Service Fund, we have 
been always trying to push the envelope. And that is why in the 
very first vote that happened after I became chairman was to 
deliver $170 million in funding to unserved parts of upstate 
New York so that they can have the connectivity that folks in 
big cities often take for granted.
    Mr. Tonko. Anyone else?
    With that, I will yield back. Thank you very much.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Engel for 5 minutes.
    Mr. Engel. Thank you, Madam Chair. I want to start with 
funding for the repack. I understand that the FCC has reduced 
its total cost estimate for the repacking process downward, 
from approximately $2.1 billion to $1.86 billion. Many have 
told me, though, that they think the amount is likely higher.
    So, Chairman Pai, do you think that Congress should provide 
additional funding for the repacking process?
    Mr. Pai. Thanks for the question, Congressman. And that 
number could fluctuate up or down. It is not set in stone at 
this point.
    What I said to the other committees on the Senate side was 
that, to the extent that we don't have the ability to be on the 
$1.75 billion that is in the relocation fund, that additional 
funding from Congress will be necessary in order to meet that 
gap that, otherwise, broadcasters would have to pay out of 
their own pocket in order to fill.
    Mr. Engel. Let me also ask you this, Mr. Chairman. If 
Congress provides additional funding, do you believe that low-
power TV stations and TV translators should also be eligible 
for that funding?
    Mr. Pai. That is obviously a decision for Congress to make 
in the Spectrum Act. Congress decided not to give those 
entities rights in terms of reimbursements. So if Congress 
changes that determination, then certainly the FCC would be 
duty-bound and would happily administer it.
    Mr. Engel. So you don't personally have a position on that?
    Mr. Pai. Well, I have been talking to a lot of these low 
powers and translators, and they are in a tough situation. And 
so I can tell you I have been pushing for them since September 
28, 2012, when we issued the notice of proposed rulemaking on 
this issue that whatever consideration the FCC can give them, 
and Congress too, would be welcome.
    Mr. Engel. Because there is another group that we have 
heard from, FM radio stations, who are impacted by the 
transition, but not included----
    Mr. Pai. Correct.
    Mr. Engel [continuing]. In the initial reimbursement fund.
    Mr. Pai. And we have heard those concerns too that, under 
the Act, they aren't entitled. But to the extent they are 
piggybacking, essentially, on infrastructure that is owned by 
the television broadcaster, then here too Congress, I think, 
could step in and provide some relief.
    Mr. Engel. Thank you.
    Let me ask Commissioner Clyburn, how important is it to 
ensure that there is money for consumer education in this 
transition?
    Ms. Clyburn. Oh, my goodness. It is just so obvious, you 
know, in terms of, you know, looking at what impact, if any. 
Hopefully, negligible that would happen in this--as we move 
toward relocating and making our ecosystem more efficient. The 
public needs to be aware that the low power--the stations and 
those who are not protected but impacted, they need to be 
informed. And we need to continue to do what we can to protect 
them to make sure they don't have to do relocation twice. All 
of these things are very important for us to be at the 
forefront of ensuring that the transition is smooth as 
possible.
    Mr. Engel. Yes. I don't think anybody would really 
disagree.
    Let me talk a bit about cybersecurity. And, Commissioner 
Rosenworcel, I am going to ask you a question. We have seen 
from high-profile data breaches at companies like Equifax and 
Yahoo, that consumers are having everything exposed, from 
social security numbers to login names and passwords. So do you 
think that the FCC has the necessary authority to address 
cybersecurity?
    Ms. Rosenworcel. Thank you for the question.
    I do. I believe the very first sentence of the 
Communications Act references our obligation to make sure that 
we make available communications for the purposes of national 
defense and for the protection of safety of life and property. 
I believe that encompasses what is modern, which is 
cybersecurity. At the same time, I recognize that our cyber 
aggressors will always move faster than any regulation. And so 
the task is can we bring people together so that we can come up 
with good best practices and implement them widely to make sure 
our networks are more secure.
    Mr. Engel. Did the Congressional Review Act rescinding the 
FCC's broadband privacy rules have any effect on the FCC's 
cybersecurity authority?
    Ms. Rosenworcel. That is a good question. I think the 
primary problem right now with cybersecurity is that my 
colleagues don't agree with me. In addition, I think there is 
the fact that our Communications Security, Reliability, 
Interoperability Council used to be tasked with coming together 
and identifying good practices for cybersecurity. But in its 
current iteration, that is not part of their agenda.
    Mr. Engel. And finally, how did the CRA impact the security 
of consumers' private information?
    Ms. Rosenworcel. Only time will tell. But I am worried 
about that as well.
    Mr. Engel. OK. Thank you.
    Ms. Clyburn. Let the record reflect I cosigned.
    Mr. Engel. Thank you.
    Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    For everyone's awareness, they are going to call votes in 
about 15 minutes. Mrs. McMorris Rodgers is seeking to be UC'd 
to the committee for the purpose of asking a question. Without 
objection, so ordered.
    You are recognized.
    Mrs. McMorris Rodgers. Thank you, Chairman Blackburn, for 
giving me the opportunity to join you today.
    The internet has revolutionized the lives of millions of 
Americans and is vital to an individual's economic potential in 
the 21st century. Unfortunately, many in eastern Washington 
live with a digital divide that is limiting employment, 
educational, health, and economic opportunities.
    Ensuring that hardworking families in eastern Washington 
have reliable access to broadband technology is a top priority 
of mine, and we must use every tool in the toolbox to provide 
greater opportunity. That is why I am excited in the 
opportunity the build-out from the broadcast incentive auction 
can provide to rural America. Many individuals and families in 
the most rural parts of my district struggle to get a signal 
for a cell phone, let alone connect to the internet. I am 
encouraged by the commitment the private sector has made in 
purchasing this spectrum and the practical effect it will have 
in eastern Washington.
    Deployment of infrastructure and technology as a result of 
the auction will support millions of jobs and generate billions 
in economic opportunity in rural America. An increased 
broadband will help the U.S. continue its leadership in 
technology and innovation by providing an on-ramp for 5G 
network deployments. That is why I led a letter with 
Congresswoman Eshoo and a bipartisan group of 54 of our 
colleagues urging the FCC to continue supporting the current 
timeline for the repack resulting from the auction. This issue 
is too important. Ensuring that the repack remains on schedule 
will mean that many in eastern Washington will gain reliable 
broadband access in a matter of months, not years.
    I want to thank the FCC for putting a renewed emphasis on 
closing the digital divide, and I am encouraged by the 
engagement of the Commission in looking for new innovative ways 
to deliver broadband to the 35 million Americans without 
access. I believe we have a great opportunity working together 
in a bipartisan manner to provide every American the 
opportunity they deserve, regardless of where they live. So I 
look forward to you making that a reality.
    So at this time, I would like to submit to the committee 
this letter that Congresswoman Eshoo and I lead with the 54 
colleagues.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. McMorris Rodgers. Before I go, I would also like to 
ask you, Chairman Pai, on Title II, until the last FCC chairman 
acted late in the previous administration to upend really 
decades of bipartisan work in fostering broadband 
infrastructure, providers of this service were subject to a 
light regulatory touch. As you have made the rounds throughout 
the country, are you concerned about achieving the level of 
broadband investment necessary to deploy broadband deeper into 
rural areas if the U.S. does not go back to the light 
regulatory touch model? And can you tell us what is on the 
horizon to remove this uncertainty over investment for folks 
that just want fast and reliable internet service?
    Mr. Pai. Thank you for the question, Congresswoman, and for 
the way you captured, I think, both the peril and the promise 
of bringing connectivity to folks in eastern Washington.
    We are, as I mentioned earlier, engaged in open proceeding 
to figure out what is the best regulatory framework that is 
calibrated to both promote the free and open internet and 
preserve as much infrastructure investment as possible, 
especially in parts of the country that don't have it. And so 
we have taken a fair amount of public comments at this point, 
and we are studying the record and trying to figure out the 
appropriate way forward.
    And what I can tell you is that we want to make sure, not 
just in this proceeding, but in every proceeding, that we have 
first and foremost in our minds closing the digital divide. 
There are far too many Americans, as you pointed out, who are 
on the wrong side of that divide. Those are individuals who 
don't have the opportunities that others have. Those are 
families that don't have the chance to thrive. Those are 
communities that are increasingly going to wither on the vine. 
And ultimately, it is the country that is weaker as a result of 
leaving human capital on the shelf. And that is why the first 
day I was in office I said this would be our top priority. And 
it is going to remain so, so long as I draw a paycheck at the 
FCC.
    Mrs. McMorris Rodgers. Great. Well, I thank you for that 
commitment.
    And with that, I will yield back.
    Mrs. Blackburn. The gentlelady yields back.
    There being no further members wishing to ask questions of 
the panel, you all have been generous with your time for the 
over past 3 hours, and I thank you all for being here today.
    As we conclude, I ask unanimous consent to enter the 
following letters into the record: The five documents offered 
by Mr. Doyle, Mercatus Center paper offered by Mr. Pallone, the 
letter from the LPTV Coalition, and the McMorris-Eshoo repack 
letter. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record. And I ask that witnesses submit their 
responses within 10 business days upon receipt of the 
questions.
    Seeing no further business before the subcommittee today, 
without objection, the subcommittee is adjourned.
    [Whereupon, at 5:16 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
   
                                 [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
